<html>
<title> - INNOVATIONS IN EXPANDING REGISTERED APPRENTICESHIP PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                  INNOVATIONS IN EXPANDING REGISTERED
                        APPRENTICESHIP PROGRAMS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 27, 2019

                               __________

                           Serial No. 116-13

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
       
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                               __________
              
  
                  U.S. GOVERNMENT PRINTING OFFICE
 
 36-588 PDF            WASHINGTON : 2019
 
 
 
 
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT

                 SUSAN A. DAVIS, California, Chairwoman


Joe Courtney, Connecticut            Lloyd Smucker, Pennsylvania
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Brett Guthrie, Kentucky
Josh Harder, California              Glenn Grothman, Wisconsin
Andy Levin, Michigan                 Elise Stefanik, New York
Ilhan Omar, Minnesota                Jim Banks, Indiana
David Trone, Maryland                Mark Walker, North Carolina
Susie Lee, Nevada                    James Comer, Kentucky
Lori Trahan, Massachusetts           Ben Cline, Virginia
Joaquin Castro, Texas                Russ Fulcher, Idaho
Raul M. Grijalva, Arizona            Steve C. Watkins, Jr., Kansas
Gregorio Kilili Camacho Sablan,      Dan Meuser, Pennsylvania
  Northern Mariana Islands           William R. Timmons, IV, South 
Suzanne Bonamici, Oregon                 Carolina
Alma S. Adams, North Carolina
Donald Norcross, New Jersey





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 27, 2019...................................     1

Statement of Members:
    Davis, Hon. Susan A., Chairwoman, Subcommittee on Higher 
      Education and Workforce Investment.........................     1
        Prepared statement of....................................     3
    Smucker, Hon. Lloyd, Ranking Member, Subcommittee on Higher 
      Education and Workforce Investment.........................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Carlson, Ms. Jennifer, Executive Director, Apprenti..........     8
        Prepared statement of....................................    11
    Gainer, Ms. Bridget, Vice President of Global Public Affairs, 
      AON........................................................    52
        Prepared statement of....................................    55
    Hays, Mr. Mark, Vice Chancellor of Workforce and Economic 
      Development, Dalas County Community College Districe.......    46
        Prepared statement of....................................    48
    Pavesic, Mr. James G., Director of Education and Training, 
      United Association of Journeymen and Apprentices of the 
      Plumbing and Pipe Fitting Industry of the United States and 
      Canada, AFL-CIO............................................    36
        Prepared statement of....................................    38

Additional Submissions:
    Jayapal, Hon. Pramila, a Representative in Congress from the 
      State of Washington:
        Report: Washington State Department of Transportation....    97
    Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
      Congress from the Northern Mariana Islands:
        Prepared statement of the International Union of Painters 
          and Allied Trades (IUPAT)..............................   110
    Questions submitted for the record by:
        Chairwoman Davis 



        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................   119
        Mr. Sablan 



        Scott, Hon. Robert C. ``Bobby'' , a Representative in 
          Congress from the State of Virginia 





        Trahan, Hon. Lori, a Representative in Congress from the 
          State of Massachusetts 



    Responses to questions submitted for the record by:
        Ms. Carlson..............................................   121
        Mr. Hays.................................................   126
        Mr. Pavesic..............................................   128
        
        
        
        

 
      INNOVATIONS IN EXPANDING REGISTERED APPRENTICESHIP PROGRAMS

                              ----------                              


                       Wednesday, March 27, 2019

                        House of Representatives

                   Committee on Education and Labor,

       Subcommittee on Higher Education and Workforce Investment

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2175, Rayburn House Office Building. Hon. Susan A. Davis 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Davis, Courtney, Takano, Jayapal, 
Harder, Levin, Trone, Lee, Trahan, Castro, Sablan, Bonamici, 
Adams, Norcross, Smucker, Guthrie, Grothman, Stefanik, Banks, 
Walker, Cline, Watkins, Meuser, and Timmons.
    Also present: Representatives Scott, and Foxx.
    Staff present: Staff Present: Tylease Alli, Chief Clerk; 
Nekea Brown, Deputy Clerk; Mishawn Freeman, Staff Assistant; 
Christian Haines, General Counsel Education; Stephanie Lalle, 
Deputy Communications Director; Bertram Lee, Policy Counsel; 
Andre Lindsay, Staff Assistant; Jaria Martin, Staff Assistant; 
Katherine McClelland, Professional Staff; Kevin McDermott, 
Senior Labor Policy Advisor; Richard Miller, Director of Labor 
Policy; Max Moore, Office Aide; Merrick Nelson, Digital 
Manager; Veronique Pluviose, Staff Director; Banyon Vassar, 
Deputy Director of Information Technology; Claire Viall, 
Professional Staff; Joshua Weisz, Communications Director; 
Cyrus Artz, Minority Parliamentarian; Courtney Butcher, 
Minority Coalitions and Members Services Coordinator; Bridget 
Handy, Minority Legislative Assistant; Blake Johnson, Minority 
Staff Assistant; Amy Raaf Jones, Minority Director of Education 
and Human Resources Policy; Hannah Matesic, Minority Director 
of Operations; Kelley McNabb, Minority Communications Director; 
Jake Middlebrooks, Minority Professional Staff Member; Brandon 
Renz, Minority Staff Director; Mandy Schaumburg, Minority Chief 
Counsel and Deputy Director of Education Policy; Meredith 
Schellin, Minority Deputy Press Secretary and Digital Advisor; 
Brad Thomas, Minority Senior Education Policy Advisor; and 
Lauren Williams, Minority Professional Staff.
    Chairwoman DAVIS. Good morning. The Committee on Education 
& Labor will come to order. We certainly want to welcome 
everybody here today. I note that a quorum is present and the 
committee is receiving testimony today on innovations in 
expanding Registered Apprenticeship programs.
    The Subcommittee on Higher Education & Workforce Investment 
is holding what is actually our first real official hearing 
this term, to examine opportunities to expand access to high 
quality Registered Apprenticeship programs.
    Registered Apprenticeships are a valuable tool in our 
effort to help more Americans get the skills they need to 
compete in the modern economy. And for apprentices, these 
programs provide access to good paying jobs and benefits that 
provide employees increased wages as they build their skills, a 
valuable credential that can help secure future employment and 
of course advance along a rewarding career path.
    Over 90 percent of apprentices are employed after 
completing their apprenticeships--that is quite a number 
actually--and earn an average starting wage above $60,000 
annually. Over the course of a career, individuals with 
apprenticeship credentials can earn around $300,000 more than 
non-apprentices.
    Registered Apprenticeship programs are similarly beneficial 
for employers. They can build a pipeline of more productive and 
talented workers who are more likely to remain at their jobs 
for an extended period of time. It builds loyalty, and we have 
heard that repeatedly. Studies have shown that for every dollar 
that employers invest in apprenticeships they receive $1.47 in 
improved productivity, reduced waste, and greater innovation.
    But not all training programs are shown to be this 
beneficial. The key ingredient that has made the Registered 
Apprenticeship so successful is the consistent quality found 
across all apprenticeship programs. Quality standards in 
Registered Apprenticeship programs not only ensure that 
apprentices build valuable skills while earning a salary and 
benefits, but they also ensure apprentices receive a credential 
that is valued in the labor market and recognized by employers 
across the country.
    These programs require employers to develop a plan 
combining classroom and on the job training, and this includes 
a schedule for when and how the program will help workers 
increase wages as they build skills and competencies.
    In June of 2017 the White House issued an Executive Order 
creating the President's Taskforce on Apprenticeship Expansion. 
The Taskforce recommended a second track for apprenticeships, 
called industry recognized apprenticeship programs, or what we 
call IRAPs.
    IRAPs would allow private entities to both create and set 
their own standards for apprenticeship programs without the 
quality assurance and approval of the Department of Labor. In 
other words, IRAPs would not be required to maintain the same 
quality standards as Registered Apprenticeships but would still 
have access to the same taxpayer dollars dedicated for high-
quality Registered Apprenticeships. And the rationale behind 
this proposed change is that the current apprenticeship system 
is too burdensome and inflexible.
    And today we have witnesses who run the Registered 
Apprenticeship programs in sectors including information 
technology, insurance, and construction, and I hope that we 
will be able to talk, you know, about the differences to a 
certain degree and how we can certainly see clear so that it is 
a process that people can understand easily and that it is not 
a cumbersome one.
    The committee welcomes their perspectives on whether the 
Registered Apprenticeship model meets the needs of their 
industries and ways to improve the system while maintaining 
quality and how to support expansion of high-quality programs.
    To ensure that the proposed IRAP program does not waste 
taxpayer dollars we need to examine then if it will provide 
employers with a consistent level of quality standards that 
they already expect from Registered Apprenticeship programs and 
if it is necessary to divert resources to maintain two 
apprenticeship programs as opposed to improving and modernizing 
one national apprenticeship system.
    According to a study done by the Harvard Business Review, 
there are currently 47 occupations--26 of which commonly 
require a 4-year degree--that would benefit from creating new 
apprenticeships--but have required skills that can be obtained 
without one. And this includes professions such as computer 
support specialist.
    And just as we must expand apprenticeships into new 
sectors, we must expand into nontraditional demographics. 
Women, for example, make up nearly half the U.S. work force yet 
account for less than 10 percent of apprentices.
    I know through my conversations that there is strong 
bipartisan support for apprenticeships. Last Congress I joined 
with Mr. Guthrie in introducing the Apprentice Act, which would 
have expanded apprenticeship programs and awareness as well as 
creating a better alignment between the Departments of 
Education and Labor. There are a number of other good proposals 
that we will consider, such as expanding pre-apprenticeships 
and growing the number of intermediaries who can assist small 
and medium sized businesses.
    I want to thank our witnesses for traveling long distances 
to be with us here today, and we certainly look forward to all 
of your testimony.
    I now yield to the ranking member, Mr. Smucker, for the 
purpose of an opening statement.
    [The statement of Chairwoman Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Chairwoman, Subcommittee on 
               Higher Education and Workforce Investment

    This morning, the Subcommittee on Higher Education and Workforce 
Investment is holding its first hearing to examine opportunities to 
expand access to high-quality Registered Apprenticeship programs.
    Registered Apprenticeships are a valuable tool in our effort to 
help more Americans get the skills they need to compete in the modern 
economy. For apprentices, these programs provide access to:
    * Good paying jobs and benefits that provide employees increased 
wages as they build their skills,
    * A valuable credential that can help secure future employment, and
    * Advancement along a rewarding career path.
    Over 90 percent of apprentices are employed after completing their 
apprenticeships and earn an average starting wage above $60,000 
annually. And, over the course of a career, individuals with 
apprenticeship credentials can earn around $300,000 more than non-
apprentices.
    Registered apprenticeship programs are similarly beneficial for 
employers that can build a pipeline of more productive and talented 
workers who are more likely to remain at their jobs for an extended 
period of time.
    Studies have shown that for every dollar that employers invest in 
apprenticeships, they receive $1.47 in increased productivity, reduced 
waste, and greater innovation.
    But not all job training programs are shown to be this beneficial. 
The key ingredient that has made registered apprenticeships so 
successful is the consistent quality found across all apprenticeship 
programs.
    Quality standards in registered apprenticeship programs not only 
ensure that apprentices build valuable skills while earning a salary 
and benefits, they also ensure apprentices receive a credential that is 
valued in the labor market and recognized by employers across the 
country.
    Registered apprenticeship programs require employers to develop a 
plan combining classroom and on-the-job training. This includes a 
schedule for when and how the program will help workers increase wages 
as they build skills and competencies.
    In June 2017, the White House issued an executive order creating 
the President's Taskforce on Apprenticeship Expansion. The taskforce 
recommended a second track for apprenticeships--called Industry 
Recognized Apprenticeship Programs, or IRAPs.
    IRAPs would allow private entities to both create and set their own 
standards for ``apprenticeship'' programs without the quality assurance 
and approval of the Department of Labor. In other words, IRAPs would 
not be required to maintain the same quality standards as registered 
apprenticeships but would still have access to the same taxpayer 
dollars dedicated for high-quality Registered Apprenticeships.
    The rationale behind this proposed change is that the current 
apprenticeship system is too burdensome and inflexible.
    Today, we have witnesses who run Registered Apprenticeship programs 
in sectors including information technology, insurance, and 
construction.
    The Committee welcomes their perspectives on:
    * Whether the Registered Apprenticeship model meets the needs of 
their industries,
    * Ways to improve the system while maintaining quality, and
    * How to support expansion of high-quality programs.
    To ensure that the proposed IRAPs program does not waste taxpayer 
dollars, we need to examine:
    * If it will provide employers with the consistent level of quality 
standards, they already expect from Registered Apprenticeship programs, 
and
    * If it is necessary to divert resources to maintain two 
apprenticeship programs as opposed to improving and modernizing one 
National Apprenticeship System
    According to the Harvard Business Review, there are currently 47 
occupations--26 of which commonly require a 4-year degree--that would 
benefit from creating new apprenticeships but have required skills that 
can be attained without one. This includes professions such as computer 
support specialists.
    And just as we must expand apprenticeships into new sectors, we 
must expand into non-traditional demographics. Women make up nearly 
half the U.S. work force, yet account for less than 10 percent of 
apprentices.
    I know through my conversations that there is strong bipartisan 
support for apprenticeships. Last Congress, I joined with Mr. Guthrie 
in introducing the Apprentice Act, which would have expanded 
apprenticeship programs and awareness as well as created better 
alignment between the Departments of Education and Labor.
    There are a number of other good proposals we will consider, such 
as expanding pre-apprenticeships and growing the number of 
intermediaries who can assist small and medium sized businesses.
    I want to thank the witnesses for traveling long distances to be 
with us here today. I look forward to their testimony. I now yield to 
the Ranking Member, Mr. Smucker, for the purpose of an opening 
statement.
                                 ______
                                 
    Mr. SMUCKER. Thank you, Madam Chair. Look forward to 
working with you on this subcommittee, and thank you for 
yielding.
    All over the country we are beginning to see the perception 
around skills-based education evolve. For far too long there 
has been a stigma surrounding skills-based education. There was 
a misconception that a baccalaureate degree was the only viable 
path to a good job and a successful life. But as the national 
skills gap of more than 7 million unfilled jobs has widened, 
people have begun to wake up to the power of skills-based 
education, like on the job learning, earn while you learn 
programs, and apprenticeships. These programs are real ways to 
give Americans the skills needed not only to build successful 
careers, but also to empower them to improve their own lives.
    We have seen a surge of interest in apprenticeships in 
recent years, but this work force development tool has really 
been around for centuries. Apprenticeship programs give 
countless Americans the knowledge and skills they need to excel 
in the millions of good paying, in demand jobs that are 
available nationwide right now.
    Nothing can prepare a student quite like on the job 
experiences. Apprenticeships are a tried and true method of 
setting students up for success. We know they work. We also 
know that we are behind other countries regarding how broadly 
apprenticeship programs can be applied. Take Switzerland, for 
example. They have robust apprenticeship programs in over 230 
industries.
    This committee should evaluate, learn best practices, and 
think about how we can expand our current apprenticeship 
offerings. And when appropriate, we need to make sure that 
government doesn't stand in the way of progress.
    Last Congress this committee made historic progress 
strengthening the work force development efforts. In July we 
sent the Strengthening Career and Technical Education for the 
21st Century Act to the President's desk and he signed it into 
law. This was the first legislation in more than a decade to 
modernize our Nation's CTU program. It promotes strong 
engagement with employers, it connects students with on the job 
learning opportunities like apprenticeships, which we know are 
invaluable tools for success in the workplace and beyond.
    The committee also passed the Prosper Act, the first ever 
post-secondary reform legislation to make apprenticeships and 
industry led earn while you learn programs a central component 
of higher education learning. Committee members also oversaw 
the implement of the Workforce Innovation and Opportunity Act, 
or WIOA as we call it, which gives employers a seat at the 
table and encourages collaboration between local leaders to 
create on the job learning opportunities.
    The Department of Labor's Registered Apprenticeship program 
served half a million active apprenticeships last year. In 
order for a business to participate in the Registered program 
they must describe what activities apprentices will complete, 
how much time will be spent on each activity, how the 
apprentice will be supervised, set a schedule for wage 
increases and affirmative action plan, among other conditions.
    I have been a strong supporter of the administration's 
actions to expand apprenticeship programs for all workers and 
have been closely following the development of the IRAP system. 
However, I am concerned that not all industries will be 
eligible to participate under the administration's proposal. We 
must not lose sight of the goal to reach all workers.
    Private industry-led apprenticeship and learn and earn 
programs account for more than 80 percent of all apprenticeship 
programs around the country. Employers know what skills their 
employees need to succeed in the workplace and we have seen 
real innovation and results from highly customizable programs 
for apprentices. We need to encourage business and community 
leaders to continue to buildup their work force and help their 
employees succeed.
    This committee must continue working to make skills-based 
education a valuable path for all Americans. This is a real way 
that we can make an impact, have an impact on our work force, 
our economy, and on the country.
    I am really looking forward to hearing from today's 
witnesses. Thank you for being here. Looking forward to hear 
about all the ways that we can connect effective education with 
jobs that are available today and promote apprenticeships to 
build our work force and better our country.
    Thank you, Madam Chair.
    [The statement of Mr. Smucker follows:]

Prepared Statement of Hon. Lloyd Smucker, Ranking Member, Subcommittee 
              on Higher Education and Workforce Investment

    Thank you for yielding.
    All over the country, we're beginning to see the perception around 
skills-based education evolve. For far too long, there was a stigma 
surrounding skills-based education. There was a misconception that a 
baccalaureate degree was the only viable pathway to a good job and a 
successful life. But as the national skills gap of more than seven 
million unfilled jobs has widened, people have begun to wake up to the 
power of skills-based education like on-the-job learning, earn-while 
you-learn programs and apprenticeships. These programs are real ways to 
give Americans the skills needed not only to build successful careers 
but also to empower them to improve their own lives.
    We've seen a surge of interest in apprenticeships in recent years 
but this work force development tool has been around for centuries. 
Apprenticeship programs give countless Americans the knowledge and 
skills they need to excel in the millions of good-paying, in-demand 
jobs available nationwide. Nothing can prepare a student quite like on-
the-job experience.
    Apprenticeships are a tried-and-true method of setting students up 
for success.
    Last Congress, this committee made historic progress strengthening 
our work force development efforts. In July, we sent the Strengthening 
Career and Technical Education for the 21st Century Act to the 
President's desk and he signed it into law. This was the first 
legislation in more than a decade to modernize our Nation's CTE 
program. It promotes strong engagement with employers and connects 
students with on-the-job learning opportunities like apprenticeships, 
which we know are invaluable tools for success in the workplace and 
beyond.
    This committee also passed the PROSPER Act, the first-ever 
postsecondary reform legislation to make apprenticeships and industry-
led earn-while-you-learn programs a central component of higher 
education learning.
    Committee members also oversaw the implementation of the Workforce 
Innovation and Opportunity Act (WIOA), which gives employers a seat at 
the table and encourages collaboration between local leaders to create 
on-the-job learning opportunities.
    Private industry-led apprenticeship and earn-and-learn programs 
account for more than 80 percent of all apprenticeship programs around 
our country.
    Employers know what skills their employees need to succeed in the 
workplace and we've seen real innovation and results from highly 
customizable programs for apprentices. We need to encourage business 
and community leaders to continue to buildup their work force and help 
their employees succeed.
    The Department of Labor's Registered Apprenticeship program served 
half a million active apprenticeships last year. In order for a 
business to participate in the registered program, they must describe 
what activities apprentices will complete, how much time will be spent 
on each activity, how the apprentice will be supervised, set a schedule 
for wage increases and an affirmative action plan, among other 
conditions.
    Registered apprenticeships and employer-led apprenticeships give 
opportunities for workers to receive the training they need to get a 
job and keep a job.
    This committee must continue working to make skills-based education 
a valuable path for all Americans this is a real way we can make an 
impact on our work force, our economy and our country. I'm really 
looking forward to hearing from today's witnesses and learning more all 
the ways that we can connect effective education with in-demand jobs 
and promote apprenticeships to build our work force and better our 
country.
                                 ______
                                 
    Chairwoman DAVIS. Thank you. Thank you, Mr. Smucker. I 
appreciate your statement.
    And without objections, all members who wish to insert 
written statement into the record may do so by submitting them 
to the committee clerk electronically in Microsoft Word format 
by 5 p.m. on April 10.
    I am now pleased to recognize my colleague, Representative 
Jayapal, to briefly introduce her constituent who is appearing 
before us as a witness today.
    Ms. JAYAPAL. Thank you so much, Madam Chair, and welcome to 
all of you.
    It is my great honor and privilege to introduce a 
constituent of mine who is here. Jennifer Carlson serves as the 
Executive Director of the Washington Technology Industry 
Association Apprenti Program, the work force development arm of 
the Association. Apprenti is focused on addressing the tech 
industry's work force and diversity needs through a registered 
technology apprenticeship program. It is the nationally 
Registered U.S. DOL IT sector lead focused on filling the tech 
industry's work force and diversity needs through Registered 
Apprenticeships.
    And I can't tell you how pleased I am that we get to lift 
up the incredibly innovative work that you are doing right out 
of Seattle that can serve as a model across the country.
    Thank you, Madam Chair.
    Chairwoman DAVIS. Thank you. I will now introduce the 
remaining witnesses.
    Mr. James Pavesic. Mr. Pavesic is the director of education 
and training for the United Association of Pipe Trades. He also 
serves as the chairman of the International Training Fund, the 
president and chairman of the International Pipe Trades Joint 
Training Committee and the co-chair of the UA Labor Management 
Cooperation Fund.
    Thank you for joining us.
    Mr. Mark Hays is the vice chancellor of work force and 
economic development for the Dallas County Community College 
District. He leads the District's efforts in the development 
and growth of apprenticeships in a variety of industry sectors 
in the North Texas area.
    Thank you for being with us.
    And Bridget Grainer of Aon is the vice president of global 
public affairs for Aon, which is using their Registered 
Apprenticeship model to create a new talent pipeline for 
building the company's work force. Ms. Grainer also played an 
instrumental role in the creation of the Chicago Apprenticeship 
Network.
    Thank you so much as well for being here.
    We appreciate all the witnesses and look forward to your 
testimony.
    I wanted to just remind you all that we have read your 
written statements and they will appear in full in the hearing 
record. Pursuant to Committee Rule 7d and committee practice, 
each of you is asked to limit your oral presentation to a 5 
minute summary of your written statement.
    And I wanted to remind you as well that pursuant to Title 
18 in the U.S. Code, Section 1001, it is illegal to knowingly 
and willfully falsify any statement, representation, writing 
document, or material fact presented to Congress or otherwise 
conceal or cover up material fact.
    Before you begin your testimony please remember to press 
the button on the microphone in front of you so it will turn on 
and the members can hear you. Very important to our 
communication. As you begin to speak the light in front of you 
will turn green and, after 4 minutes the light will turn yellow 
to signal that you have 1 remaining minute. When the light 
turns red your 5 minutes have expired and we hope that you will 
wrap up as quickly as possible.
    We will let the entire panel make their presentations 
before we move to member questions. And when answering a 
question, please remember to again turn your microphone on.
    I think that covers everything.
    So I first wanted to recognize Ms. Carlson. Please begin 
and then we will go down the line.
    Thank you.

  STATEMENT OF JENNIFER CARLSON, EXECUTIVE DIRECTOR, APPRENTI

    Ms. CARLSON. Thank you, Chairman Davis and Ranking Member 
Smucker and thank you Representative Jayapal for the 
introduction.
    Just to give some context to the challenges in the IT 
sector, there is a shortage of trained talent for technology 
roles, both within the tech sector and other sectors that rely 
heavily on technology to remain cutting edge. At the close of 
2018 there were roughly 2.97 million tech job postings in the 
U.S., however the country produces only 65,000 4-year computer 
science degrees and 250,000 total related engineering degrees 
annually. New graduates cannot fill these positions. And 
coupled with an aging work force and forecasted tech growth, 
this gap suggests a meaningful disconnect between supply and 
demand.
    As technologies evolve and automate, the skill level needed 
to meet our requirements increases. Hiring middle skills tech 
talent has become the greatest pain point for companies of all 
sectors. More and more are recognizing that college degrees may 
not be the best or only path to these middle skills jobs.
    Apprenticeship represents a time-tested approach for 
supplying companies with the talent they need and workers with 
fulfilling careers and family sustaining wage.
    Three years ago the WTIA conducted a study on diversity in 
talent gaps in Washington State's tech sector. Based on the 
outcomes of that study the WTIA decided to focus its efforts on 
the Registered Apprenticeship pathway that could address 
today's hiring needs in real time. A consortium of companies 
with hiring needs across the country, including Microsoft, 
Amazon, F5 Networks, Premera Blue Cross, Russell Investments, 
and Accenture, evaluated several program design options and 
determined that Registered Apprenticeship is the best secondary 
talent development track to invest in. This is due to the 
success of this model for the tech sector in other countries, 
the rigor and consistency of the Registered model in the United 
States, the certified completion of apprenticeship credential 
provided by the U.S. DOL via established criteria by the 
industry, and portability of the classroom training related to 
tech certifications. The industry's strategy being that 
Registered Apprenticeship creates the ability to accept 
applicants with either a college degree or completion of 
Registered Apprenticeship. Finally, per DOL regulations, the 
requirement that apprenticeship is a job. This critical 
requirement means that investment is made only in those with a 
guaranteed employer sponsor willing to train that person for a 
minimum 1-year term and employers are thus training to retain 
this new talent into planned headcount.
    These companies identified the most critical middle-skills 
jobs, defined as jobs with potential for upward mobility and 
traditionally would have required a college degree as the 
highest impact area for apprenticeship. Since then Apprenti has 
outlined and filed 13 middle-skills tech roles that it can fill 
with diverse populations based on competency over pedigree.
    After receiving the American Apprenticeship Initiative 
grant from the U.S. DOL, Apprenti launched its first cohort of 
apprentices in November 2016. It has since pushed to market 
over 40 additional cohorts for over 400 apprentices across 11 
States with 30 employers. And in 2019 we will see an additional 
20 employers and 3 new States, totaling roughly 1,000 
apprentices.
    Apprenti's role as the sector's intermediary has grown to 
meet industry's needs through screening and delivery of diverse 
talent, identification of technical training resources on 
behalf of employers, program compliance, apprentice 
registration, and as the standards holder. This hybrid time and 
competency-based Registered model straddles the high tech, 
financial services, healthcare, and retail sectors for tech 
jobs and is successfully delivering diversity with women and 
minorities comprising 66 percent of our placements, and 
veterans 64 percent of our placements.
    We are seeing incredible outcomes. The program is 
delivering value for apprentices and ROI for State and Federal 
Governments. To date, apprentices have moved from a median 
annual pre-program earnings of $29,000 with 22 percent 
unemployed on entry to the program, to a median apprenticeship 
earnings of $51,000 plus benefits and median retained earnings 
on completion and final placement with the company of $75,000. 
This reflects a 155 percent jump in earnings from pre to post-
apprenticeship in roughly 18 months. This improved lifetime 
earnings also delivers more than $1 million per apprentice in 
improved earnings. Early retention figures have been strong 
with 84 percent completing apprenticeship being retained.
    Our apprentices come from every walk of life, teachers, 
Uber drivers, warehouse workers, pharmacy technicians and 
return to work moms. Our youngest placed is 18, our eldest 
placed is 63, and the median age is 32.
    There are a number of things the Federal Government can do 
to further stimulate adoption in conclusion. Companies invest 
an average of $80,000 per apprentice in salary, benefits, and 
partial tuition subsidy for these unproven candidates. The 
technical training cost per apprentice is roughly $15,000 per 
person. Congress can create Federal match funds that State 
employers can tap into to augment the classroom training 
expense.
    Focusing additional Federal investment in scaling 
successful programs like Apprenti can move tech from thousands 
to tens of thousands of apprentices via appropriation of $1 
million per market, and there is significant brand confusion 
around the sector about the definition of what an 
apprenticeship is. Codifying into law the current regulation 
defining a Registered Apprenticeship would reduce brand 
confusion, create clear guidelines around its use, and 
establish accountability for using it in training subsidies.
    Thank you and I will do my best to address any questions 
you have.
    [The statement of Ms. Carlson follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman DAVIS. Thank you very much. Please continue, Mr. 
Pavesic.

   STATEMENT OF JAMES G. PAVESIC, DIRECTOR OF EDUCATION AND 
 TRAINING, UNITED ASSOCIATION OF JOURNEYMEN AND APPRENTICES OF 
THE PLUMBING, PIPEFITTING AND SPRINKLER FITTING INDUSTRY OF THE 
                    UNITED STATES AND CANADA

    Mr. PAVESIC. Good morning, Chairwoman Davis, Ranking Member 
Smucker, and the members of the subcommittee. My name is James 
Pavesic.
    In addition to being a proud product of an apprenticeship 
program, I am the director of education and training for the 
United Association of Union Plumbers and Pipefitters, or UA for 
short.
    On behalf of the more than 350,000 members of the UA, I 
want to thank you for the opportunity to testify today.
    There are currently over 45,000 apprentices participating 
in Registered Apprenticeship programs supported by the UA and 
our International Training Fund. These programs provide 
training covering the full range of UA crafts, including HVAC 
technicians, plumbers, pipefitters, welders, and sprinkler 
fitters.
    In my view there are at least five attributes to a 
successful apprenticeship program.
    First, there needs to be successful partnerships. A 
successful apprenticeship program is built on a partnership 
between organized labor, signatory employers, government, and 
more recently accrediting agencies, such as the Council on 
Occupational Education, or COE. The UA and its signatory 
employers are able to invest over $200 million each year on 
apprenticeship and journeyperson training. Bear in mind that 
these are all private sector dollars, so these investments come 
at no cost to taxpayers.
    All totaled, training programs sponsored by the UA and our 
sister building trades unions provide the lion's share of the 
training for the U.S. construction industry. UA apprenticeship 
programs have always been a part of the Registered 
Apprenticeship system and we believe very strongly in it.
    UA programs also benefit from the accreditation process 
conducted by the COE. The COE has accredited an increasing 
number of UA programs which allows us to provide instructions 
for which apprentices receive college credits.
    The second attribute of a successful program is effective 
recruitment. UA programs are committed to offering the benefit 
of apprenticeship to all qualified applicants, including people 
of color and women. The UA has also worked with the U.S. 
military to train and place veterans in our programs through 
our award-winning Veterans in Piping, or VIP program.
    Under the VIP program the UA offers transitioning service 
men and women the opportunity to participate in an intensive 
18-week program on base where they receive cutting edge 
training in one of our crafts at zero cost to the government, 
the military, or the student. VIP graduates are then placed in 
a local apprenticeship program with advanced credit and 
guaranteed a job.
    The VIP program currently operates on seven different 
military installations and has provided apprenticeship 
opportunities to nearly 2,000 military veterans to date.
    One of our many appeals of the UA apprenticeship is the 
opportunity for apprentices to earn a strong wage and benefit 
package while they learn. To give you an example, pipefitter 
apprentices in my home local, Local 597 in Chicago, currently 
receive an average of $32.79 per hour, along with a high 
quality health coverage, contributions to a 401(k), and other 
benefits. Apprentices who complete the program today will earn 
an hourly wage of $48.50 and begin receiving contributions to a 
defined benefit pension plan on top of their 401(k). In 
addition to receiving on the job instruction, apprentices 
attend classes at one of the hundreds of state-of-the-art local 
UA training schools across the country and have the chance to 
earn college credits in the process.
    Upon graduation they enter a growing industry with a 
lifetime of skills and are in high demand and, unlike the 
average college student, they come out of our program debt free 
because the education they received comes at virtually no cost 
to them.
    Innovation is a third attribute of successful 
apprenticeship program. UA apprenticeships partner with subject 
matter experts, industry suppliers, and manufacturers to design 
and implement training programs that are on the cutting edge of 
new technologies.
    A fourth attribute of a successful program is a team of 
dedicated and talented instructors, which our organization is 
fortunate to have in abundance.
    Fifth, and finally, no apprenticeship program is successful 
without a commitment to excellence. Everyone involved in the 
program must be invested in the work of setting high standards 
for the apprentice and then helping that apprentice achieve 
them.
    Anyone could call something an apprenticeship, but as I 
hope I have been able to convey, building a successful program 
requires a great deal more than that. In the UA's view, the 
best way for Congress to make life changing apprenticeship 
opportunities available to Americans is to support the programs 
and invest the time and resources and commit the high standards 
necessary to produce those apprenticeship opportunities.
    I invite every member of this committee to see what this 
looks like by visiting one of our training centers. It would be 
our privilege to have you.
    Thank you again for this opportunity.
    [The statement of Mr. Pavesic follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman DAVIS. Thank you. Mr. Hays.

   STATEMENT OF MARK HAYS, VICE CHANCELLOR OF WORKFORCE AND 
 ECONOMIC DEVELOPMENT, DALLAS COUNTY COMMUNITY COLLEGE DISTRICT

    Mr. HAYS. Madam Chair, Ranking Member, and members of the 
subcommittee, my name is Mark Hays and I serve as the vice 
chancellor for Workforce and Economic Development for the 
Dallas County Community College District in Dallas, Texas. 
DCCCD consists of seven independently accredited colleges with 
credit and non-credit enrollment exceeding 100,000 students. It 
is the largest community college district in the State of Texas 
and one of the largest in the Nation.
    It is indeed an honor to be before you today to discuss how 
DCCCD is engaging employers, students, community-based 
organizations, and others to expand apprenticeships in North 
Texas.
    In my role as vice chancellor of Workforce and Economic 
Development, I oversee a dedicated team of professionals who 
work to expand apprenticeships in a variety of industry 
sectors. We have made a commitment to our board of trustees for 
DCCCD to be engaged with 50,000 apprentices by 2030. To date, 
we are involved in 25 apprenticeship programs touching more 
than 1,600 apprentices. Nearly 50 more companies have expressed 
interest in both Registered and industry-recognized programs 
and our team is working with these companies to get 
apprenticeships off the ground and getting more North Texans 
into middle class jobs. These apprenticeships encompass 
construction, manufacturing, information technology, health 
care, logistics, and aerospace.
    We work with both private employers and organized labor to 
create middle class jobs that provide a good living for workers 
and a stable work force for businesses in North Texas. DCCCD's 
involvement in these apprenticeship programs varies. The 
District may simply be a pass-through entity for funds for some 
apprenticeship programs, but is also more involved as an 
intermediary, assisting employers with the establishment of new 
apprenticeships and working with State and Federal officials in 
assuring compliance with the law.
    Our team works closely with employers, the U.S. Department 
of Labor's Office of Apprenticeship, and the Texas Workforce 
Commission to provide meaningful, competency-based 
apprenticeships that are important in meeting work force 
demands in the Dallas area.
    A significant milestone occurred this past summer when 
DCCCD, in partnership with RMS Aerospace, the Office of 
Apprenticeship in Dallas, and the Texas Workforce Commission 
worked together to create the Nation's first Registered 
Apprenticeship in unmanned aerial systems. The first cohort is 
underway and educating future UAS pilots for cutting-edge jobs 
with a variety of North Texas employers. Apprentices will 
receive three FAA licenses and one FCC certification when they 
complete the program.
    I often get the question, why is a community college 
district so involved with apprenticeships. Well, my answer is 
our job is to help workers earn more and companies to become 
more profitable. Dallas is experiencing a conundrum. While 
there are thousands of middle-class jobs going unfilled, the 
poverty rate is the third highest in the Nation. Most of these 
jobs require an associate degree or less, yet people who need 
these jobs are not getting connected to them. Our DCCCD 
Chancellor, Dr. Joe May, speaks about the higher education 
network, where it is not about a single higher education 
institution, but about creating a better, more efficient system 
where communities and individuals thrive.
    Many of the apprentices we work with are not enrolled in 
our colleges as students. This effort is not about enrolling 
more students in our colleges. We hope that at some point they 
do enroll, but that is not the primary motivation here. We want 
members of our community to obtain the skills necessary to 
support their families and we want companies to have a stable 
work force. If those apprenticeships involve college credit, 
great. If not, well then that is okay too. The key is obtaining 
the necessary skills to provide a good living and creating a 
dynamic, skilled work force that helps our communities grow and 
thrive.
    The vast majority of apprenticeships DCCCD is involved with 
are registered. We do have a small number that are industry 
recognized apprenticeship programs and we fully anticipate 
those types of apprenticeships expanding significantly once the 
Department of Labor issues clear guidance on IRAPs.
    DCCCD's goal is to meet employer needs, whether that be a 
Registered Apprenticeship or an IRAP. Some employers are 
hesitant to begin the process of a Registered Apprenticeship 
because they feel it is not flexible enough to meet their 
needs. They want a program that allows an apprentice to be 
trained in multiple skill areas. At DCCCD we are all about 
meeting the employer needs and look forward to dramatically 
expanding IRAP programs in the future. Our team is prepared to 
work with both Registered and IRAP apprenticeships, working 
with employers, and Federal and State officials to make it 
happen.
    In closing, I would like to emphasize how critical the role 
of the community college system is in moving apprenticeships to 
the next level. While Registered Apprenticeships have been 
around for decades, it is only recently that the community 
college has begun to play a significant role. Community 
colleges must continue to add and expand apprenticeships so 
individuals and communities can thrive. We cannot allow 
ourselves to be boxed in by excluding any type of program that 
allows individuals to obtain the necessary skills to succeed 
and businesses to grow.
    Thank you for this opportunity today. I sincerely 
appreciate your attention and your dedication to this effort.
    [The statement of Mr. Hays follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman DAVIS. Thank you very much. Ms. Gainer.

 STATEMENT OF BRIDGET GAINER, VICE PRESIDENT OF GLOBAL PUBLIC 
                          AFFAIRS, AON

    Ms. GAINER. Thank you very much. So good morning, 
Chairwomen Davis, Foxx, and all the members of the committee. 
Thank you for this opportunity to testify today about Aon's 
Apprenticeship program and where it can take us in the future.
    I am Bridget Gainer, vice president of Global Public 
Affairs for Aon based in Chicago. Aon is the leading global 
professional services firm providing a broad range of risk, 
retirement and health solutions.
    Now is an important time in work force policy and we are 
encouraged that policymakers, academics, and employers are 
recognizing the expanded role that apprenticeship can play in 
continuing to develop the 21st century work force.
    Every year, Aon surveys employers around the country about 
the risks that they face in running their business. At the top 
of the list, along with trade, cyber threats, and others is 
work force and the ability to find the right talent to grow 
your business.
    The U.S. economy has been changing for a generation, with 
the services sector and technology--industries where skills 
evolve rapidly and there are few structured training programs--
taking up a larger and larger part of both GDP and employment. 
But our work force policy has failed to keep pace. 
Universities, employers, and individuals are often sitting in 
silos without an effective mechanism to scale successes across 
the country. These mechanisms do exist however. Apprenticeships 
have long been successful in the skilled trades and give a road 
map to effective recruitment, training and employment.
    At Aon we have the benefit of a generation's worth of proof 
that this return on investment works. Apprenticeships across 
the economy, trades, services, retail, hospitality, are common 
in Europe, especially in the UK. There is a long tradition of 
students leaving high school and joining the insurance 
industry, especially in London.
    In London, as in Chicago, the motivation was to address a 
specific constraint in the work force and, in this case, it was 
retention and engagement, especially in entry level positions. 
As we all know, the assumption that you will begin and end your 
career at the same company is long gone. But the turnover rates 
among certain entry level positions was of such a pace and 
percentage that it called out for a solution. And we found it 
within the ranks of our own employees. When we looked at the 
roles that had higher attrition in the UK, we found that those 
employees who had entered as an apprentices were much more 
likely to stay at Aon longer and had higher engagement scores, 
which is essentially a measurement of how you feel connected to 
and happy with your job and your employer.
    Engagement scores have a direct correlation to 
productivity, as evidenced by a recent Gallup Poll. Over the 
last 5 years, Gallup interviewed 2 million workers at 300,000 
organizations and found that engagement was directly correlated 
to productivity and profit.
    So we know from the track record in the UK that 
apprenticeships have both higher retention and engagement.
    So from my office window at Aon in Chicago I can look down 
Lake Street and see Harold Washington College, one of Chicago's 
city colleges. And I am pleased that Mr. Hays mentioned the 
role of city colleges because I think it is incredibly 
important. Until 2 years ago Aon had never hired anyone from 
city colleges. All our hires only came post 4 years of college. 
But it was a missed opportunity for us. We were ignoring an 
entire talent pipeline that was staring us in the face, but we 
had no real way to bring them into the company.
    So we brought together employers, worked on a curriculum, 
created mentorship programs, but realized we could do so much 
more, which became the base for the Aon apprenticeship program.
    So I want to be really clear about this next point, our 
apprenticeship program is not a social program. It must work 
for the business. So we set out to build a business case to 
replace some of our entry level positions with apprentices. The 
first step was to determine which ones really required 4 years 
of college, or where had we just gotten in the habit of hiring 
from 4 years of college.
    We looked closely at those jobs and found that many of them 
had really high turnover, which is expensive and disruptive. 
Because the role didn't require the degree, the new hire was 
not staying in a job that didn't really demand it. But our H.R. 
system required it because that is the way we always had done 
it.
    Over the last 3 years at Aon, we have hired 75 apprentices 
in a 2-year program in IT, H.R. and our core insurance 
business. They work 4 days a week at Aon, go to class at Harold 
Washington, which is a city college in Chicago, on Fridays. 
They are paid as full-time employees and receive the same 
health and retirement as I do, as well as fully paid tuition. 
Of the three classes of apprentices we have hired, 75 percent 
of them are African-American or Latino, most are Chicago Public 
School graduates, and all of them were working multiple jobs to 
finance their life and school before coming to Aon.
    Further our apprentice program is Registered in partnership 
with the Department of Labor which signifies that our program 
meets the standards and quality requirements for such programs.
    Because of these efforts, these young people have a path to 
a career not just a job. But that was just the beginning, 
because I mentioned, the idea is good, but the scale is 
essential.
    We created the Chicago Apprentice Network to give employers 
an opportunity to come together, learn about the program, and 
eventually join. In our first year, 2017, us and Zurich had 50 
apprentices. In 2018 there were 8 employers with 130 
apprentices. And this year we have 23 employers with 425 
apprentices across the city of Chicago, the goal being 1,000 by 
the end of 2020.
    This is a tremendous opportunity for our City, but this is 
where we need your attention and leadership. In order to build 
this new tranche of our work force we need to have a structured 
program that has national standards. Registration is a big part 
of that because our investment is high quality and we want it 
returned to us.
    To that end I would like to commend Congressman Lipinski, 
Congressmen Rodney Davis, and Raja Krishnamoorthi, who just 
introduced the Leap Act to further support apprenticeships.
    I also have comments on city colleges, which were said by 
Mr. Hays, but they are incredibly important to the ongoing work 
of the apprentice programs.
    Thank you for having me.
    [The statement of Ms. Gainer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman DAVIS. Thank you very much. Thank you to all of 
you. Your testimony was very helpful.
    We are going to move into our question session now under 
the 5 minute rule. Everyone can ask a question and we will kind 
of keep an eye on the clock for them as well. We will be 
alternating between the parties.
    I now recognize myself for 5 minutes.
    And my question to you really goes along with the testimony 
of all of you. I mean we acknowledge that apprenticeships have 
seemed to pique the interest of employers, of policymakers, 
educators, new apprentices, and more. For the United States we 
are certainly at a 20 year high for the average number of 
people taking part in apprenticeships. And Congress has 
continuously increased our appropriations for Registered 
Apprenticeship programs with dedicated funding starting in 
2016.
    Ms. Carlson, according to your testimony, of course 
Apprenti was created just 3 years ago.
    Ms. CARLSON. Yes.
    Chairwoman DAVIS. And has a great record in that 3 years. 
And Ms. Gainer as well, really you--first apprentices started 
in 2017. So it is happening at a time that we actually have low 
unemployment and, you know, people might ask, so what is going 
on now. Why now? Why is there interest and appetite across the 
country to create and invest in and expand these apprenticeship 
programs?
    You have clearly outlined a lot of that in your statements. 
I wanted you to just offer, if you could, what you think of the 
reasons that you have heard, and even borrowing from one 
another, what stands out the most, why now?
    And we are going to move on and then talk about the role of 
the Department of Labor as well.
    Ms. Carlson, if you would like to start.
    Ms. CARLSON. Certainly. I think if you are looking from the 
tech sector, it is a combination of factors. There is this 
significant talent gap that we outlined already, but you are 
also dealing with a highly underemployed population in the 
folks that we are looking at. If you look at the median income 
coming in at $28,000. It turns out in a very blind way--we 
don't ask for educational attainment coming into our program--
but we only know that based on apprentices that 52 percent of 
them have a college degree. And if the median age is 32, that 
means they came out at the bottom of the economy, and based on 
that income have been largely in service level and entry level 
positions and incapable of moving up.
    So this creates an alternative pathway for them to get 
reeducated into a much higher living wage and serve the tech 
sector as well without having to go back to college and start 
over.
    Chairwoman DAVIS. Great. Mr. Pavesic.
    Mr. PAVESIC. Well, I don't believe that the interest in 
apprenticeships really correlate with unemployment, because 
apprenticeship is not about filling jobs today or tomorrow, but 
it is really about getting a career and having that career and 
having those lifetime skills and being a productive member of 
society and being able to raise a family and send your children 
to college.
    These are highly skilled jobs. It is a viable chance for 
them to, you know, let us say even avoid college debt. You 
know, let us face it, college debt is a huge problem in this 
country. And for an individual to be able to attend an 
apprenticeship at little to no cost to them and come out with a 
job that pays just as well as a college education, is a 
wonderful thing.
    The other part of it too is that as some of these 
apprenticeships show, they can earn college degrees. It is a 
different path to a college degree post-secondary education.
    Chairwoman DAVIS. Thank you. Go ahead and, just quickly as 
you can. I know it is hard. What else would you like to 
emphasize?
    Mr. HAYS. Yes, Madam Chair. I think it comes down a lot to 
the labor economics. Employers are looking for employees. They 
are not only looking for them, but how do they retain these 
employees. And, you know, we all know that there are more job 
openings than there are workers to fill them now, so in some 
sense it is a desperation among some employers to try to find 
workers to fill those needs.
    So I have always said, if you keep doing the same thing you 
have always done, you are going to keep getting what you have 
always got. So employers are starting to look at 
apprenticeships in a whole new light now as a way to fill labor 
force needs.
    Chairwoman DAVIS. Thank you, Ms. Gainer.
    Ms. GAINER. Yes, just quickly. Look, the pendulum has 
shifted. A generation ago a lot of people didn't go to college 
and they had perfectly good career jobs. It swung way over to 
college and I think what we are seeing now is the weaknesses in 
that system. So you have high cost of college, you have this 
high turnover rate. You know, candidly, millennials need a lot 
more engagement to stay happy at work. And this was an issue. 
So I think engagement, retention, and the pressures of high 
cost of college.
    Chairwoman DAVIS. Great. Thank you so much. I wanted to ask 
you all about what role you think that the Department of Labor 
should be playing in relation to apprenticeship programs.
    Maybe just from you Ms. Gainer, sort of high, medium, low? 
What do you think?
    Ms. GAINER. Yes. I think that they--look, as an employer 
perspective, the role of the Federal Government is to set 
standards. We do not take one dollar of Federal money, nor have 
we ever sought, and neither do any of the employers that are in 
our network.
    Having said that, it is not a--I don't want to be in the 
position of creating a set of standards for other people to 
follow, but I do want to know that if we have invested 2 years 
in training someone to be an IT analyst that they should be 
able to go to another company and be an IT analyst, just like 
you can be a plumber or you can be something else. It should be 
portable in the marketplace because to invest in the work force 
is ultimately better for the entire country.
    That is not the job of the employers to set national 
standards, however they need to be high quality and set across 
the country.
    Chairwoman DAVIS. Thank you, thank you. And perhaps someone 
else will pick up and will get into this role as well.
    I want to now recognize the ranking member, but instead we 
have the ranking chairwoman of the Education & Workforce 
Committee, and so I am delighted to turn to Ms. Foxx.
    Mrs. FOXX. Thank you very much, Madam Chairman. And I want 
to thank our witnesses for being here.
    The Chairwoman has had a great interest in this for a long, 
long time, as have I. And I am very glad that we are having 
this hearing today.
    Mr. Hays, I am encouraged to hear you say preparing the 
individuals for the work force should not be about one type of 
education, degree, or institution. I have tried to champion the 
idea that all education is career education.
    Can you tell me more about how that type of flexibility 
benefits your community and the people that come through your 
programs?
    Mr. HAYS. Absolutely. Congresswoman, it is a matter of--we 
don't want to put people in a box. We know that people learn 
different ways, people pick up skills different ways. We want 
that flexibility to be there so that these individuals can 
obtain the skills they need in order to provide for themselves 
and their families.
    And so if that is Registered Apprenticeships, great, if it 
is IRAPs, great, if it is a traditional college degree, 
outstanding. We want to be able to have that flexibility in our 
community to give people the choices that they can make to 
better support themselves and their families.
    Mrs. FOXX. Great. Thank you.
    Mr. Hays, every day I hear from employers they need skilled 
workers. We have talked about that; most of you have. 
Registered Apprenticeship programs are a great way for workers 
to earn while they learn a skilled trade. However, many 
employers, as you have all--I think most of you have said that 
the process can seem overly burdensome to employers and may 
ultimately not give the company the flexibility it needs.
    What are some of the concerns you have heard from employers 
when it comes to Registered Apprenticeship programs?
    Mr. HAYS. I think there are two main concerns from our 
employer community. One is the length of time it takes to get a 
Registered Apprenticeship program off the ground. And the 
second one, to some extent there is a lack of flexibility of 
trying to learn multiple skills. Sometimes they feel like they 
are put in a box on the skills that they have to--for the 
apprentices to learn. They would like to have more flexibility 
to expand the skills of that apprentice.
    Mrs. FOXX. You mentioned in your comments something that 
you don't usually hear from somebody associated with a 
community college, and that is whether the students receive 
college credit or not is not the big issue that you all are 
concerned with. And I applaud you for saying that.
    But how many of your programs, if any, have college credit 
built into them and do you expect that to be more of a focus in 
the future? Because I assume you are funded on FTE by the state 
and that you would be funded under continuing education 
differently than you are for curriculum.
    Mr. HAYS. Yes. So there are a couple of programs where the 
apprentices get college credit. What we look at as a community 
college system is how can we be more innovative in this area. 
It could be a situation of prior learning credit, where an 
apprentice gets through a program and then we come back on the 
back end and say that we can award the apprentice college 
credit for this instead of, you know, working through the state 
system to try to get new programs established. That can take 
anywhere from a year and a half to 2 years. Employers don't 
want to wait that long, apprentices don't want to wait that 
long. How can we as a community college system possibly come 
back on the back end and award that credit once the apprentice 
is well established or through with the program.
    Mrs. FOXX. Well, that is a very innovative way to think 
about it because obviously the college has that opportunity to 
do it, particularly if you are the ones who are designing the 
programs, then you know what is in those programs and they 
could be very similar to what you have in curriculum. Is that 
correct?
    Mr. Hays. Yes, ma'am. Very much so. And a lot of this too, 
we listen to the employers, you know, what is it you need, what 
kind of skills do you need these apprentices to have. And 
making sure that rigor is sustained and that as a community 
college system, how can we help grease the skids, move this 
process along. And then if the apprentice or the employer 
chooses later on for that apprentice to have college credit, 
then how can we make that as painless as possible and get it 
done quickly.
    Mrs. FOXX. And one more question, you don't have to answer 
it all now, we can get it from you later, but are you keeping 
records on the number of students who might continue at Dallas 
Community College or other Texas colleges to earn degrees? 
Because one of our big concerns these days is completion of 
programs. And so I hope you are keeping some records on this so 
you will know how many go on.
    Mr. HAYS. Yes, ma'am. Yes, correct.
    Mrs. FOXX. Thank you. Thank you, Madam Chair.
    Chairwoman DAVIS. Thank you very much. Ms. Jayapal.
    Ms. JAYAPAL. Thank you, Madam Chair, and thank you again 
for your very interesting testimony.
    This is a topic of great interest to me. When I was in the 
state Senate we worked with labor unions, community colleges, 
and nonprofit organizations to put together a very successful 
pre-apprenticeship program with millions of dollars. It was a 
bipartisan program that I led and we had incredible retention 
and graduation rates in just 2 years. Iron workers actually did 
a fantastic job of really reaching out to formerly incarcerated 
and minorities.
    So I appreciate very much the work that you have done.
    Ms. Carlson, your testimony described stark gender 
disparities in Registered Apprenticeships in Washington State. 
Through December 2018 there were about 19,220 Registered 
Apprenticeships in the state, of which only 10 percent were 
women and about 7 percent of apprentices were women at the 
Federal level.
    How does this contribute to broader gender wage gaps in the 
industry?
    Ms. CARLSON. Well, I think that hiring and cost disparity 
and how we compensate people in the tech sector is well 
documented unfortunately. The significant advantage on the 
Registered Apprenticeship side is that doesn't exist. What we 
establish as a wage per occupation with each company, and it is 
company driven at that level, is what all apprentices in that 
role get paid. And so there is no wage disparity walking in the 
door.
    And we have established a system for communicating with the 
companies also on retention where we identified a couple of 
companies, one in particular, that retained their male 
apprentices at a slightly higher wage, not at the significant 
gap we have seen historically, than the female. And we brought 
that to their attention and they leveled that.
    Ms. JAYAPAL. Thank you. And today we will pass the Paycheck 
Fairness Bill on the House floor under Democratic control.
    So you also mentioned that Apprenti aims for 70 percent of 
its participants to be women, people of color, and/or veterans. 
I am interested in how you target these groups in particular. I 
would add rural communities to this as well, because I think 
there is a particular challenge with getting jobs into rural 
communities.
    And if any of the others of you would like to respond 
briefly to that as well I would be interested.
    You want to start, Ms. Carlson?
    Ms. CARLSON. Certainly. So far our success in attracting 
diversity has been strong. We have 84 percent of our applicants 
in women underrepresented minorities and veterans. And the way 
we have defined that very specifically are African American, 
Hispanic, mixed race, Native American, Pacific Islander, 
basically to the exclusion at an EEO level of Asian and Indian 
because that isn't underrepresented in the tech sector 
specifically.
    The composition, 64 percent underrepresented women, 66 
percent veteran. Composite is 84 percent. So we are well above 
the 70 percent that we intended to place and continue to manage 
to that level.
    Ms. JAYAPAL. And if anyone else wants to add to this, I am 
interested in what strategies you used to do that. What makes 
you effective at getting that kind of diversity?
    Ms. CARLSON. I think it was about the outreach and how we 
structured the program from the get-go. It was about how we 
targeted organizations that work with those underrepresented 
groups from working on base for recruitment to community 
college system to NPOs, nonprofit organizations, serving those 
groups.
    Ms. JAYAPAL. Anyone else want to add to that? Ms. Gainer?
    Ms. GAINER. I think it is intentional recruitment and I 
think it is also creating a support system.
    So we partnered with an organization called One Million 
Degrees that meets with the students when they go to school on 
Fridays. They meet with a manager of the--One Million Degrees 
meets with the manager, they meet with the students. I mean, 
look, we always tell these guys, your boss is not your mom. You 
have to kind of figure out a way to navigate your workplace. So 
realizing that this is someone's first entry into work and 
supporting them has been helpful.
    Ms. JAYAPAL. That is really what we found too. Those 
nonprofit organizations can do that particularly well, so those 
partnerships are important.
    Finally, I am deeply concerned about the Trump 
Administration's effort to replace Registered Apprenticeship 
programs with so called industry-recognized apprenticeship 
programs which do lack government oversight and protections for 
potential conflicts of interest and the welfare of apprentices.
    Mr. Hays mentioned that in his experience employers are 
hesitant to begin the process of a Registered Apprenticeship 
because they feel it is not flexible enough to meet their needs 
and they want a program that allows an apprentice to be trained 
in multiple skill areas.
    And I am just curious, Ms. Carlson, has that been your 
experience at Apprenti, and what would you say in response to 
that?
    Ms. CARLSON. It has not been our experience thus far. And 
we are working now in 11 states and the consensus of the 
companies we worth with has been that they want a single 
standardized system, an ecosystem if you will, of Registered 
Apprenticeship to define the roles, because the roles are not 
dissimilar from one sector to the next with regard to 
technology, and that portability of the skill set is what it is 
most important or paramount to our ability to scale this 
operation, and that will actually provide the outcomes the 
companies are looking for to fill the skill gap.
    Secondarily, they have had extraordinary flexibility in 
creating the tech talent, the training, the classroom portion 
of training, to meet that employer's specific needs. And we 
actually work with the Dallas Community College system to 
deliver that on behalf of AWS, Amazon Web Services, and have 
scaled it exactly to their needs, very differently than we 
scale Microsoft's training needs, but to the same platform of 
skill sets required.
    Ms. JAYAPAL. Thank you so much.
    Chairwoman DAVIS. Thank you.
    Ms. JAYAPAL. And, Madam Chair, if I might ask for unanimous 
consent to introduce into the record a progress report for the 
Pre-apprenticeship Support Services program that I mentioned at 
the Washington State Department of Transportation.
    Chairwoman DAVIS. Thank you. So ordered.
    Ms. JAYAPAL. Thank you.
    Chairwoman DAVIS. Mr. Watkins.
    Mr. WATKINS. Thank you, Madam Chair, and thank you Ranking 
Member Foxx.
    Mr. Hays, this question will be for you. A majority of my 
constituents are enjoying record low unemployment. The Bureau 
of Labor Statistics says that in February the unemployment rate 
in Kansas, it is the lowest it has been in 10 years. It is 3.4 
percent. We believe that this is in part because of common 
sense pro-growth policies like low taxes and low regulation.
    With such a demand for skilled labor, it seems like we 
should be focusing more on all types of apprenticeship and work 
force development programs, not just the Department of Labor 
Registered programs.
    What are your comments on that and what kind of work force 
development policies do you think we should consider here in 
Congress?
    Mr. HAYS. Well, as I have mentioned, Congressman, I think 
it is important that we have a variety of programs from the 
standpoint of the community college district that we can work 
with employers on.
    If those are Registered Apprenticeships, that is great, if 
they are IRAPs, outstanding for us as well. If it is credit 
programs, certificate programs, we are there to move agilely to 
meet employer needs. We want to be able to help those 
employers.
    In Dallas about 60 percent of our funding as a community 
college district comes from ad valorum taxes and 60 percent of 
those taxes are paid by businesses. We are in the business of 
helping our businesses to succeed. And when we help our 
businesses succeed that means they will hire students or they 
will hire apprentices and make those programs work.
    As far as policies go, the thing that we ask for is 
basically we want to maintain rigor in all of our programs, 
whether it be apprenticeship programs, academic programs, 
whatever the case may be. We feel that employers are giving us 
great feedback, and they say why would we want to train people 
for jobs that we have in our business and those people not be 
trained to the utmost of the skills that they can get.
    So we hear both sides of this and we work the Registered 
programs, the IRAP programs. We also work the traditional 
college programs as well to meet employer needs.
    Mr. WATKINS. Thank you, Mr. Hays.
    Madam chair, I yield my time.
    Chairwoman DAVIS. Thank you, Mr. Watkins.
    Mr. Harder.
    Mr. HARDER. Thank you so much for being here. This is such 
an important issue and I am really excited to have the chance 
to have this conversation.
    Ms. Carlson, in your testimony you state that our Nation is 
facing a tech talent crisis. And you said in 2018 there was 
about close to 3 million tech jobs left unfilled in the U.S. 
did I get that right?
    Ms. CARLSON. Correct.
    Mr. HARDER. A lot of those jobs are in San Francisco and 
Silicon Valley, only 90 miles away from my district, and a lot 
of folks in my community commute 3-4 hours both ways, round 
trip every single day to have that. And we have a lot of 
talent, we just need to make sure that we are creating a better 
pipeline and a better educational system in some of those jobs.
    Given this enormous demand, enormous demand of some of 
these opportunities, do you know the percentage of combined 4-
year computer science and engineering degrees that we are 
graduating every year?
    Ms. CARLSON. I do, 65,000 computer science degrees and 
250,000 related STEM engineering degrees to computer science.
    Mr. HARDER. Got it. So let us take the big number there, 
250,000--
    Ms. CARLSON. Right.
    Mr. HARDER [continuing]. compared to 3 million job 
openings.
    Ms. CARLSON. Right.
    Mr. HARDER. So I think we can all agree that we are not 
going to solve the tech talent crisis just by graduating more 
people from a 4 year degree.
    Ms. CARLSON. And there is no capacity.
    Mr. HARDER. Exactly. And I think that is especially 
resonant in a community like mine, where 84 percent of my 
residents don't have a 4-year college degree. And I think if we 
tell people that the only route to the middle class, the only 
route to solve some of these jobs that our employers need to 
fill is through a 4-year college degree, we are really doing a 
deep disservice to a lot of folks.
    So that is the demand side, but let us talk about the 
supply side. So on the supply side, the Federal Government 
today spends about a billion dollars, $1.2 billion on 
vocational programs. Do you know the ratio of how much we spend 
for vocational programs versus higher education?
    Ms. CARLSON. I do not.
    Mr. HARDER. So we did the math, we tried to add it all up. 
There are a lot of different programs there. But what I think 
is I think we spend about $80 billion on the Federal level for 
higher education, PELL grants, subsidized levels, all the rest, 
and that we still have a crisis on how we actually can make 
college more affordable, so we probably need to be doing a 
better job there. But even at our current level, we say that 
this is an important priority and we are spending 80 times more 
on higher education than we are on vocational training. We need 
to do a much better job of increasing funding for both higher 
education and for our apprenticeship programs.
    What do you think we can be doing? Like if we actually did 
a real good job of emphasizing the funding around a vocational 
training program and made it commensurate to the amount of 
talking and lip service that we give it, what could we be doing 
better to make sure we are connecting that gap?
    Ms. CARLSON. Well, I think there are two things, at least 
with regard to our sector when I speak of tech. One is we don't 
have the rich 80-year history yet that our brothers in the 
trades have. And we don't have the same level of company 
engagement with regards to paying for the classroom portion of 
training for unproven quantities at this point. We have a lot 
of appetite and interest and swirl in the corporate side to 
understand what this could mean in creating new talent.
    We have worked very closely with the state of California, 
amongst others, to create public-private partnerships to 
underwrite some of that training cost. But creating a sustained 
national funding mechanism that companies can tap into while we 
grow into this idea of taking people from nontraditional 
sectors, would be significant.
    And just to run a couple of quick numbers, if we put $100 
million into a national training fund on a match basis for 
companies or states to tap into, that would fund on a partial 
basis, 50 percent. Roughly 13,000 apprentices with that $50,000 
earnings delta in the tech sector, going from $29,000 to 
$79,000 in earnings from pre-apprenticeship to post-
apprenticeship. That would net $650 million in improved income 
just in the first year, or $13 billion lifetime. That would be 
a meaningful ROI on that $100 million a year investment that 
the government could make.
    Mr. HARDER. Yes, yes. I really see there as being two 
challenges here. One is this huge imbalance between supply and 
demand that we have talked about and the lack of real Federal 
focus to solve this problem.
    But the second is what you highlighted, which is the fact 
that we now have our entire apprenticeship program in America 
governed by an Act that Congress passed in 1937. And I don't 
think there were a lot of tech jobs that were really in 1937. 
Maybe some weird stuff.
    So that is what we need to be doing and I am really excited 
to have the opportunity to talk about this. And we will look 
forward to working with you and hopefully getting some stuff 
across the finish line.
    I yield back by time.
    Chairwoman DAVIS. Thank you very much.
    Mr. WALKER. Thank you, madam Chair. I would have to take 
just a moment to applaud the Simmons family, machine 
specialists back in my district there who have really created 
the best apprentice program that I have seen and would at some 
point maybe like to enter some of their work into the record.
    Mr. Hays, when it comes to the Federal Government being 
involved in some of these apprenticeships, how do you feel 
like--if you were grading this, giving the Federal Government a 
grade trying to partner with a small business, where are we 
right now? Can you speak to that?
    Mr. HAYS. Well, I can speak to the experience we have had 
with the Office of Apprenticeship in Dallas, in the DUO 
regional office there. They have been fantastic to work with. 
They are understaffed, they have great knowledge of 
apprenticeship programs, we consider them a critical partner, 
along with employers and organized labor in all of our 
apprenticeship programs.
    Grading the system as a whole, it is tough to say because 
it can vary in different parts of the country.
    Mr. WALKER. Okay. Let me move forward. You have given me a 
good synopsis there.
    Can you describe this typical student that participates in 
one of your apprenticeship programs? Can you build me a little 
profile here?
    Mr. HAYS. Yes, again it is hard to build a profile, but 
most of the apprentices basically are in their early 20's, but 
however in our unmanned aerial system programs we have 
individuals anywhere from early 20's--one individual that is in 
his early 60's that is in that program. So we see that this is 
a--we are kind of plowing new ground in North Texas in this 
area. So it is something we are going to see I think a lot more 
interest in.
    Mr. WALKER. And would you say the impact of these 
apprenticeship programs--how would you describe that? I don't 
want to lead you too far, but give me just a quick word on 
that.
    Mr. HAYS. Well, I think the impact right now is growing and 
as we said, we want 50,000 apprentices by 2030 in Dallas and we 
think that will be a substantial economic impact and that will 
continue to grow every year.
    Mr. WALKER. I appreciate that. What would say some of the 
concerns of the small businesses are regarding compliance with 
the requirements of these Registered Apprenticeships?
    Mr. HAYS. I think there is some trepidation in the fact 
that they just don't know. There has to be some education 
involved there, not only from us but from the Department of 
Labor. Other businesses who are participating in apprenticeship 
programs now are great resources. Businesses talking to 
businesses helps a lot and helps alleviate a lot of those 
fears.
    Mr. WALKER. Sure. I think you mentioned about small 
businesses in your testimony seeking additional flexibility. 
Can you expand for just a second on that lack of flexibility?
    Mr. HAYS. It is a common perception among the businesses 
that if I train an individual in a Registered program with one 
set of skills then I am locked into that one set of skills. A 
lot of that is education on our part, how we can help 
individuals look at apprenticeship programs that are best for 
them. They want employees that have a multiple tool box full of 
skills that they can use. And some look at the Registered 
programs and say that works, others look at the IRAPs and say 
that is what we would like to have.
    Mr. WALKER. How would IRAP or other industry-based programs 
address that issue?
    Mr. HAYS. I think the perception is it gives the employers 
more flexibility to help individuals with multiple skill sets, 
gives them the freedom that they can do some things, that maybe 
they couldn't do under Registered programs. And so they look at 
those with a very keen eye because they think those programs 
could work for them.
    Mr. WALKER. I was meeting recently with an organization 
called Pike Energy and meeting with the CEO and I was impressed 
to talk about what they are trying to do, and that within 5 
years pretty much anybody can be trained and be making 6 
figures a year.
    The problem is, with Pike Energy and dozens and dozens, if 
not 100 companies I have talked to in North Carolina, they 
can't seem to find someone to be able to even start these 
programs. So maybe this a question to you, and anybody else who 
wants to weigh in my final minute here, at what age range--and 
maybe if you have any experience--at what age range should we 
be identifying some of these skill sets as far as trying to 
match them up to some of the industry that we see out there?
    Mr. HAYS. Well personally, I think pre-apprenticeship 
programs are great in this area because it gets students 
exposed at an early age to those areas. And I think that the 
earlier the better. Letting people know about occupations, pre-
apprenticeship programs are great, whether it be at the high 
school level and getting people prepared for a full-blown 
apprenticeship program, whether it be Registered or an IRAP 
program.
    Mr. WALKER. I would like to followup some more, but I have 
got about 17 seconds left, so with that I will yield back, 
Madam Chair.
    Chairwoman DAVIS. Thank you.
    Mr. Levin.
    Mr. LEVIN. Thank you, Madam Chairwoman. Thank you so much 
for convening this hearing. This is a very important topic. I 
am a huge champion of apprenticeships.
    And I want to just pick up where the gentleman just left 
off with pre-apprenticeship programs. When I was running the 
work force system in Michigan we worked with the Registered 
Apprenticeship programs, such as Mr. Pavesic represents here, 
and created pre-apprenticeship programs from high school on--
you know, college, dislocated workers, whoever, could enter 
them. And we got people ready to meet the rigorous standards of 
the Registered Apprenticeship programs. Road construction 
apprenticeship readiness was the first one we did. And we had 
paid programs where people got training, got tools, and a lot 
of them were people from disadvantaged communities. You know, 
it is something that is very good.
    You know, I think that Registered Apprenticeships can and 
should expand into new industries, occupations, and populations 
as one of many solutions to address the need for more high-
quality pathways to the middle class and beyond.
    Registered Apprenticeships have consistently proven to be 
worthwhile investments, with 91 percent of apprentices employed 
after completing their apprenticeships, earning an average 
starting wage above $60,000 annually.
    I am troubled by the Trump Administration's efforts to 
expand unregistered apprenticeship programs which are not 
accountable for meeting quality standards or ensuring the 
success of apprentices. I strongly support innovation and 
expansion of our Registered Apprenticeships into new 
occupations, but I will not compromise on the quality and 
accountability of these programs.
    I extend my hand to Republican colleagues who want to work 
with us on expanding high-quality Registered Apprenticeships 
that would benefit both employers and employees.
    Ms. Gainer, I have concerns with the confusion that having 
two apprenticeships systems under the same name with very 
different levels of quality and accountability will add for 
employers and prospective participants. Do you share those 
concerns?
    Ms. GAINER. You know, I think the key thing is employers 
really want to focus on running their business and they want to 
hire people and they want them to be trained and they want a 
credential like a 4-year degree to mean something. So if you 
went to a college in North Carolina, it is the same as if you 
went to a college in Indiana, and you can do that. I think one 
set of standards means that we are much more likely to make the 
improvements in the work force policy that we are talking 
about.
    What is going to happen is no one is going to lead a 
protest to your door to tell you it doesn't work. They are just 
not going to do it because it is too complicated. And no one 
wants to spend a bunch of time navigating whether or not this 
thing makes any sense. We already know that the registration 
process creates a system in which someone is trained to a do a 
job and they can do the job. I doubt anyone is--large employers 
are going to spend a lot of time trying to learn a whole new 
system. You just may get people not participating.
    Mr. LEVIN. So you want certainty and clarity about the 
standards essentially from the employer--
    Ms. GAINER. Yes. We are making a substantial investment and 
we would like it to mean something.
    Mr. LEVIN. Absolutely. And I appreciate your earlier 
comments about portability being so important for you. And it 
is really a contribution the employers make. They build their 
own work team and they build it across their whole industry.
    Mr. Pavesic, you know, people talk about this program as 
being restricted to union workplaces. Some say Registered 
Apprenticeships are only for traditional trades and that unions 
receive preferential treatment from the U.S. Department of 
Labor for their programs.
    From your experience, do these claims seem to be accurate?
    Mr. PAVESIC. Well, you know, I heard it said, and Ranking 
Member Smucker mentioned the amount of apprenticeships in 
Europe and how far ahead Europe is the United States. And I 
would say that, you know, a Registered Apprenticeship--and we 
have talked here today about Registered Apprenticeships and the 
amount of effort that goes into a Registered Apprenticeship, 
the thing is, if something is easy, is it really worthwhile? 
You know, we shouldn't water down apprenticeships just so that 
we can increase the numbers of apprentices in this country. 
Registered Apprenticeships have stood the test of time. The 
building trades are definitely, you know, a source of that to 
be able to see that, but I just don't see where if we water 
down apprenticeships and create those numbers--and, you know, 
we talk about filling jobs, we want to make sure that 
individuals are trained so that when unemployment goes up that 
they have the skills to be able to find a job and not just be 
able to have that one job and then when that job is gone then 
they no longer have the skills to find another.
    Mr. LEVIN. Thank you. Madam Chairwoman, as my time expires, 
I wanted to tell you I was at the Bricklayers Local 2 training 
center in my district in Warren, Michigan late last week and 
they have 30 and 40 people coming into wave after wave of 
apprenticeship training programs, a rainbow of people, all 
ages, from all races and nationalities. And they can't train 
enough people. It is a fantastic job, you know, starting 
$60,000 and above. So this is a really important area for our 
workers.
    Chairwoman DAVIS. Thank you.
    Mr. LEVIN. And I really appreciate your interest in it.
    Chairwoman DAVIS. Thank you.
    I am going to turn to Mr. Meuser.
    Mr. MEUSER. Thank you, Madam Chair. Thank you very much to 
all of you for being here with us today. This is a very 
important discussion, one of which is quite topical in my 
district, in Pennsylvania, and I am sure most districts 
throughout the country. I appreciate your expertise.
    And I have spent much time visiting career and technical 
schools throughout my district, including career and tech 
centers in Lebanon County, Carbon County, and Schuylkill 
County. Just yesterday I met with directors from Berks Career 
and Technology Center, sharing ideas on how we can improve this 
climate of skill and career development for people of all ages.
    We also have in my district some high schools, including 
Central Columbia High School, that has an outstanding career 
development program.
    So it is quite topical to have this sort of initiative for 
the work forces that are available. And so as we fulfill the 
many jobs that are also available and going unfilled.
    So, Mr. Hays, I know you understand the importance of 
making sure we are educating students a way that the lines--
with the unique needs of employers in our communities. So I ask 
you, as you are doing an excellent job with your community 
college, creating opportunities for industries within your 
area, can you talk about how other school districts can 
replicate some of your best practices?
    Mr. HAYS. Well, I think that a lot of it was we just 
decided to jump in and learn. And mistakes were made along the 
way, and we will make more mistakes I am sure. But as we gather 
this expertise it is all about listening and listening to the 
workers, listening to the employers--that is key--and what are 
their needs.
    So, you know, our--basically what we do is we serve as an 
intermediary in a lot of ways. If an employer says I need 
people trained in these skills or I need people trained in 
those skills, then we try to solve the problem. How do we help 
the employer meet those skill shortages, how do we connect 
Dallas County residents with those opportunities, how do we get 
into the high schools to let students know that those 
opportunities are available? You know, we have a lot of our 
students--our average age in our college is about 26. A lot of 
those are individuals they may have a child or two. And when 
you're going with the traditional higher ed speak and saying 
well in 2 years you could be doing this or 4 years you could be 
doing this and said no, what can I do in 2 weeks or 2 months, I 
have got kids to feed, how can I move ahead. So a lot of times 
apprenticeships are a great avenue for them if they don't have 
the time, the luxury of time to spread out a 2-or 4-year 
program for a college degree. Get into apprenticeships, start 
making some money right now. And then if they want to look at 
college hours down the road, great, we will help them with that 
too.
    Mr. MEUSER. Okay. Are you finding employers difficult to 
gain to be part of this and for them to embrace that this is a 
great way of fulfilling their job?
    Mr. HAYS. It is a lot easier than it used to be. And as I 
mentioned earlier, I think a lot of that is due just to the 
fact of labor force shortages. The workers just aren't there 
that they need. So they are looking at new ways, innovative 
ways that they can come in and try to attract workers and 
retain those workers.
    And so it is the conversations that we are having where 
employers are much more open to hearing about apprenticeships 
and other innovative methods to put people to work to meet 
their labor force needs.
    Mr. MEUSER. Okay. But do you find that a challenge, 
training young people, or anyone, for a new career, developing 
new skills is certainly one part of it, the fulfillment, but 
making sure that those who have the demand are aware of what 
endeavors that you are and what you are offering? Is that more 
of a challenge than the--
    Mr. HAYS. It is a challenge simply because of the scale of 
Dallas and the Dallas-Fort Worth area of how large it is. We 
try to reach out to as many employers as we can, but we are 
still hitting just a drop in the bucket with the number of 
employers that we do have.
    But we want to get that word out as quickly as we can to as 
many employers as we can to let them know that there are 
options available to them.
    Mr. MEUSER. Thank you. Madam Chair, I yield. Thank you.
    Chairwoman DAVIS. Thank you.
    Ms. Trahan.
    Ms. TRAHAN. Thank you, Madam Chair. I want to thank you for 
holding this important hearing and for the witnesses for taking 
the time to join with us this morning.
    In Massachusetts our Republican Governor has launched a new 
initiative to expand Registered Apprenticeships. And much of 
what we have heard today I am proud to report we are already 
doing in the Bay State.
    The Governor's apprenticeship expansion plan was launched 
last summer to fill pipelines of mature industries, but also to 
grow into new economic sectors as well. And in just over a year 
we have added over 100 new apprentices in manufacturing, we 
have new programs in healthcare, and our first apprenticeship 
program for software developers will be launching in April.
    Ms. Carlson, thank you for testifying today. You have had a 
great success. Apprenti is clearly filling an important role in 
meeting the demands of today's tech job market. And three words 
from your testimony jumped out at me, competency over pedigree. 
I agree with you, we need to embrace more pathways for our 
young people to get a good job at a good wage, particularly as 
college prices continue to rise. However, in a tightening job 
market a bachelor's degree or higher seems to be a 
prerequisite, even if the job doesn't necessarily require it.
    Dr. Noemi Custodia-Lora, who is an assistant dean at 
Northern Essex Community College, and our president there, Dr. 
Lane Glenn, recently wrote a paper titled ``Revaluing the 
Associate's Degree to Remedy the Skills Gap''. The upshot was 
although many employers can require a bachelor's degree or 
higher for a particular middle skills job, it doesn't mean that 
they should or need to do so. The associate degree can be 
sufficient.
    Your testimony was in a similar vein, but for Registered 
Apprenticeships. I have no quarrel at all with those who value 
a bachelor's degree. I was the first in my family to graduate 
and it was life changing for me.
    This committee recently reported that a bachelor's degree 
holder will earn 167 percent more than what a high school 
graduate would earn, but a bachelor's degree isn't always the 
best option and we need to, as you say, value competency over 
pedigree.
    What has been the reception from Washington's Technology 
Industry Associations' membership or other companies as 
Apprenti has expanded into I think more than 11 states now, 
when you have argued for apprenticeships filling roles that had 
been traditionally reserved for those with a bachelor's degree?
    Ms. CARLSON. Well, I think the pain point for employers is 
finally at a fever pitch. You know, there are a combination of 
factors. The mantra has become poaching in order to get the 
talent that they need, which is driving company P&Ls up 
significantly on their tech talent. And so this is an 
opportunity for them to sort of change their direction and be 
willing to become training entities, to develop the talent that 
they need, and create the long-term sustainable platform for 
training talent that the country needs on a portable basis.
    The companies that are working with us have gone very 
publicly on record as needing to work on more of a culture 
change in the tech sector around training. And so the first 40-
50 companies that are at the table, very large and very small 
companies both, are working on that front to do exactly that.
    Ms. TRAHAN. Do you have lessons for us, certainly making 
the case for Registered Apprenticeships to employers, but as 
you so eloquently said, culture change. How do we accelerate 
that culture change?
    Ms. CARLSON. Well, again, I think it is about the pain 
point. Companies have recognized it and they understand it. 
They are looking for the right solution. And I think that my 
colleague here at the other end of the table very eloquently 
put it herself that this is about investing in a system that we 
expect to be sustainable and portable and that we wouldn't do 
this at a company level if we didn't see that support from the 
government level to create such a program.
    Now, it is a birds of a feather flock together mentality. 
So, you know, each company is looking to see who else has gone 
before them and how successful that has been. And we are 
finally getting to a point of momentum where we are able to 
show that it is working across sectors, across states, and that 
the skill sets are stable and that the talent, even though 
unproven, is able to migrate into the job and be retained.
    So it is really in--we are in that 5-10 year longitudinal 
study window that companies need to see to feel positive about 
it.
    Ms. TRAHAN. You bet. And I am going to try to squeeze this 
last question into my 20 seconds.
    But often what we hear from employers is that with no 
formal bachelor's degree, soft skills are lost, that are so 
important. You know, those management skills, financial 
literacy skills.
    Have you confronted that? In 5 seconds do you have any 
recommendations for how to fill that gap?
    Ms. CARLSON. I don't have a recommendation. I can tell you 
that it is a core requirement of the companies coming in 
though.
    Ms. TRAHAN. Okay, great. Thank you.
    Chairwoman DAVIS. Thank you.
    Mr. Guthrie.
    Mr. GUTHRIE. Thank you, Madam Chair, for holding this 
meeting. Thank you for all the witnesses for being here. I tell 
people back home quite often that a lot of the stuff that 
happens here happens in working together in bipartisanship. 
That is not what gets on television all the time. And the Chair 
and I have worked hard on the Apprentice Act, and just put 
forth the Partners Act.
    And everybody here--because everybody here and sitting at 
home, they were having employers that want to expand, want to 
grow, want to move forward, and they can't find qualified 
employees to apply or to be there. And if employees show up 
with the right skills, they are going to make their lives 
better.
    So knowing makes their businesses better, makes our citizen 
better. And so that is why there is so much focus on this. And 
what a great panel.
    I worked in a manufacturing facility and we didn't have 
enough tool and die makers, industrial maintenance people, and 
tried to find them, tried to find them, until we found the very 
best people were the ones working in our plant at other places. 
They knew what the die was, they knew what the--they knew how 
to run it, but they didn't know how to set it, they didn't know 
how to make it, they didn't know how to repair it. But they 
showed up for work every day and they were working hard. And 
they weren't underemployed according to their skill level, but 
they were certainly underemployed to their aptitude level and 
what they could be and what they could do.
    And there was a particular person, who is like mid 30's and 
had 2 children, one almost a teenager. And I remember at a 
quality lab her doing an angle on a thing and I said, wow, you 
just did trig, and she had dropped out high school. And she 
said, I don't know trig, I never took trig. I said well, you 
don't know that, but you do know it. And it was funny to see 
her kind of spark and go on back to school.
    But I guess through that, 4 years is a lifetime to her. If 
you are 33 years old, you have got almost a teenager, just to 
say I can't go in the fall and just in the spring and take the 
summers off. I have got to get through this. And so that is 
what--who we--I want to focus on and try to reach out to. I 
think a lot about her and people in her situation and how we 
move forward.
    But there are a lot of jobs that require skills, and with 
those skills come good wages. But some will take 4 years, like 
truck driving. I know in our area you can start over--almost 
$50,000 starting for truck driving. There are welders paying 
$18 for people just to show up and learn how--$18 an hour just 
to learn how to weld if they are willing to learn how to weld.
    And what seems to be happening--of course, our big supply 
of these skills were people that came to work unskilled and we 
trained them, because they were smart and they just didn't know 
it, or nobody told them that, or something happened to them in 
their education level. But now you struggle just to get the--if 
you have some unskilled--so in a factor you have got unskilled 
jobs or low skilled jobs and you have got high skilled, and 
trying to transfer them up. Now, just getting people--if you go 
to employers now, they say, if I could find somebody breathing 
and pass the drug test, they would move forward, I can move 
forward.
    And so I guess what I am getting at--and I know that, Mr. 
Hays, you have an ambitious program with your apprenticeships. 
And when you go to factories and when you go to even work force 
training--we did a lot of work bipartisan on WIOA. The biggest 
concern when you go to employers, even people who train work 
force training, is we don't have people showing up for the 
training, we are not getting people into the training. And 
wages are--I mean it is almost $50,000 to start truck driving. 
I think Walmart said they might pay $90,000 for truck driving 
because they can't move their stuff.
    So but it just doesn't seem the market is working. That 
wages are going up in skills. I am not--don't necessarily talk 
about unskilled or low skilled, and business--and there are 
seven main open jobs, but people aren't showing up for the 
training. I know people are, but the mass of people that can 
fill these jobs.
    And, Mr. Hays, do you have any insight on that? And I know 
you want to reach I think 50,000 people, and how are you going 
to measure that and how are you moving forward with that?
    Mr. HAYS. And I will give you a good example, Congressman. 
In Dallas right now there are probably 45-50,000 jobs open 
today that pay $24 an hour or more and require an associate 
degree or less. And yet, as I said, we have the third highest 
poverty rate in the Nation. They are not buying what we are 
selling.
    Mr. GUTHRIE. That is my point. You are right onto my point. 
So what is your--
    Mr. HAYS. So how do we bring that home. And I think a lot 
of it we are doing--and our chancellor very visionary with his 
early college high school programs. We have 55 high schools in 
Dallas County right now that will next fall be participating 
where students are getting an associate degree and their high 
school diploma at the same time. And we have partnered like 
with the University of North Texas Dallas so those students can 
move into bachelor degree programs, for example, at no cost to 
that student.
    We have the Dallas County Promise. Students who are 
graduating seniors from Dallas County high schools coming in 
and not having to pay anything to go to college.
    Mr. GUTHRIE. You think you are--are you capturing--I am 
running out of time--are you capturing students that would have 
probably gone on anyway, they just got it done before they got 
out of high school, or are you actually bringing in people that 
you think would have been lost to the system?
    Mr. HAYS. Yes, we--the data shows that we are increasing 
significantly the number of students who are going to college.
    Mr. GUTHRIE. That is good.
    Mr. HAYS. And my thing is that college is an option for 
them, but apprenticeships are too. And so how do we create 
programs in the high school levels to start bringing those 
students into apprenticeships.
    Mr. GUTHRIE. I might have said college, I meant skills.
    Mr. HAYS. Yes, skill programs as well. And I think the pre-
apprenticeship programs that we discussed are great avenues for 
that. And it is something--we have to up our game in to try to 
bring in more pre-apprenticeship programs to the high schools 
to match what we are doing bringing students into college 
programs.
    Mr. GUTHRIE. Okay. Thank you. Thank you for that. I 
appreciate it. And I yield back.
    Chairwoman DAVIS. Thank you very much.
    Ms. Lee.
    Ms. LEE. Good morning. Thank you all for your testimony 
today.
    Mr. Pavesic, first of all, I had the honor of touring Local 
525's training facility in Las Vegas, Nevada, and I must say, 
it was a true gem and a true asset for our community.
    Mr. PAVESIC. Thank you.
    Ms. LEE. I also, in addition to serving on this committee, 
I also serve on the Veterans Affairs Committee, and so I was 
very pleased with your testimony about the UA's Veterans in 
Piping program, the VIP program, where you support 
transitioning service members and give them advanced credit 
toward their completion of their apprenticeship program.
    I wanted to ask you, what was the UA's motivation in 
creating that program?
    Mr. PAVESIC. Well, basically it was the right thing to do. 
These men and women put their life on the line to, you know, 
protect us and to keep our Nation safe, and it was--it really 
wasn't even a sale, it was a very easy program that we put 
together that the membership 100 percent supported. And it is 
supported 100 percent with membership contributions into our 
training fund.
    Ms. LEE. Thank you. You know, suicide prevention is such an 
important part of what we are focusing on the Veterans 
Committee, and I hear again and again from veterans that it is 
a whole body and it is about having work and having employment 
and living in dignity. So thank you for that.
    I wanted to ask you, talking about the success of it, can 
you talk about your success metrics in how successfully you 
transition veterans into the workplace?
    Mr. PAVESIC. So, you know, it didn't come without problems. 
I mean when we started it we were new to it and it was actually 
a new program even to the military. But what we found is that 
as we worked more closely with the military--and what we 
actually do now is the military sends us the candidates. So 
they understand the candidates, what they are looking for, if 
they will be successful. Not every soldier wants to be a 
pipefitter or a plumber. So we wanted to make sure that if we 
were going to make that investment that individual was willing 
to do that trade and to get into that trade.
    And the idea then too was then to support them. We make 
sure that we find a job for them when they come out. And the 
best part about this is that they are actually trained while 
they are still on active duty. So the day they transition out 
they go right into a job.
    Ms. LEE. That is great. Thank you very much.
    Ms. Carlson, the Administration recently released its 2020 
budget and proposed the $160 million expansion of IRAPs rather 
than direct funds toward Registered Apprenticeship programs. 
The Department of Labor also may soon announce the first grant 
recipients for these new IRAPs.
    I believe that with the introduction of these 
apprenticeship programs it is super important that we ensure 
that there is a strong quality control that ensures that 
individuals who are enrolled can also achieve the outcomes that 
they so desire. We have seen what weak oversight does and the 
pitfalls of that, or quality control, especially when it comes 
to for-profit schools. Certainly in my community in Las Vegas, 
we have seen a lot of closures and a lot of students put out 
without any degree as a result.
    Will your organization attempt to create these new IRAPs 
rather than stay with the Registered programs?
    Ms. CARLSON. No. My board has made the decision with me to 
stay in the Registered system and not engage in IRAPs.
    Ms. LEE. Can you expand on what were the factors that 
caused you to make that decision?
    Ms. CARLSON. Well, at this point, it is two really. It is 
that we have no directive from the employers that we work with 
to do it differently, and the companies want a standardized, 
holistic, portable system and feel that the rigor attached to 
the Registered system is the correct one. The IRAP system being 
defined as something that would be company centric takes away 
from that portability on the skill sets.
    Second to that is that we don't have a definition of what 
an IRAP is. I can't engage in what I don't understand. And as 
we have tried to do our research on that and have sat through 
several committee meetings, it is still unclear what it is 
expected to deliver and how it will be defined.
    Ms. LEE. Thank you. Mr. Pavesic, I have one more question 
for you.
    Can you tell us what sets the UA's Registered 
Apprenticeship programs apart from other work force training 
models like the non-registered programs in your same sector?
    Mr. PAVESIC. Well, I mean highly skilled jobs, the amount 
of money that the individuals make when they come out. And it 
is actually we are setting them up to be great attributes to 
the country, because it is not just a job that we are training, 
it is a career.
    Ms. LEE. Great. Thank you all very much. Appreciate it.
    Chairwoman DAVIS. Thank you.
    Mr. Grothman.
    Mr. GROTHMAN. Right. Thank you very much. I do have 
apprenticeship programs in my district, as everybody else, you 
know, toward the carpenters, the operating engineers, pipe 
trades, that sort of thing. All very impressive and all share 
something in common, they can't find enough people. And 
employers around my district can't find enough people.
    I will ask you guys, and maybe I should start with Mr. 
Hays, but any of you, is there anywhere in the country where we 
really have enough people in these sort of things, or is it a 
nationwide thing that these well paid professions are--
frequently more well paid than what you get with a 4-year 
college degree--can't find people to fill them? Is there 
anywhere around the country where they really have enough 
people in these trades? Do you have anywhere or is this a 
nationwide problem?
    Okay. I attribute part of this to the snobbishness 
connected with a 4-year degree, coming out advisors, high 
school guidance counselors, that sort of thing. This is a 
problem that has been going on for 20 or 25 years. I don't know 
why they are not up to snuff. Can you suggest what we can do to 
get the word out to people at age 16 or 17 about how much more 
money they can make and how much less in debt they will be--not 
to mention have, I think, more job security--to the young 
people than we are now.
    Mr. PAVESIC. Can I answer that?
    Mr. GROTHMAN. Sure.
    Mr. PAVESIC. I believe that where the real answer is to the 
guidance counselors that are in high schools.
    Mr. GROTHMAN. They need some regulation there. There is 
where you are going to need competence.
    Mr. PAVESIC. And the biggest part of that, Congressman, is 
that their evaluations are based on how many children they send 
to college, whether they spend 1 day in college or they go the 
entire time. And that is how their evaluations are based. They 
should be based on have they sent somebody to a post-secondary 
education system, whether it be apprenticeship or college.
    And we try to talk to guidance counselors. I mean we attend 
the guidance counselor conferences and we talk about it. When 
they see our model they think it is a great model, especially 
the fact that they can receive college credits while they earn 
and learn, but it just seems like it--that message just doesn't 
get down to the student or the parents.
    Mr. GROTHMAN. Okay. Anybody else have any--I will ask 
something to combine with your answer to the last question. 
Well, go ahead. We let the others of you respond to that last 
question.
    Ms. CARLSON. If I may? I think it is correct that we have 
to look at what the guidance counselors are doing and how they 
are establishing it. I think that from a national advertising 
campaign we need to de-stigmatize what an apprenticeship is 
because it is--
    Mr. GROTHMAN. Oh, I think it is de-stigmatized I think 
among most people. I think the problem is a lot of guidance 
counselors, who by the way are very well paid, get very 
generous fringe benefits, are almost making things worse. Do 
you think that is true?
    Ms. CARLSON. I don't know what their compensation is. I do 
know that they are incented to put people into college degrees 
and that our sector is technology and is equally as much as 
demand looking for people to fill the jobs as the trades are. 
And that wages in both industries can end up looking the same 
within 5 years without the benefit of a degree.
    Mr. GROTHMAN. Okay. I will ask you folks, do you see a 
lot--one of the things that I think is very illuminating is 
when I hear from people in the trades or people in tech schools 
talking about people who got a degree that didn't lead to a 
skill coming back when they are 28, 29, 33, 34, getting a skill 
that they could have had when they were 20 years old, and they 
have been, you know, losing out on compensation for 13 or 14 
years, not to mention frequently harnessed with a big debt as 
well.
    Do you folks find that true around the country where people 
are getting involved in these programs much later than they 
could have?
    Mr. HAYS. Oh, absolutely. I think that, you know, we see it 
all the time, students coming back, you know, for whatever 
reason--can't find work in the area that they originally 
studied, or bored with that, tired of it, and want to try 
something new. It is pretty significant in our system.
    Mr. GROTHMAN. Anybody else want to comment on that?
    Mr. PAVESIC. What I would say is we see more and more 
applicants that come into our program that have 4-year degrees 
just for the exact same reason, they cannot find a worthwhile 
job and they need to pay off their debt. And all of them, after 
they get in the apprenticeship program, say the same thing, 
that they wish they would have done that earlier.
    And that also could help somewhat too to fund more 
vocational classes in high school so that these individuals can 
see that there are other jobs, there are IT jobs, and plumbers, 
and pipefitters, and welders that are available to them.
    Mr. GROTHMAN. I am not sure it is the Federal Government's 
role, but I do see in my area the more on the ball school 
districts are beginning to do things, getting people acquainted 
with these skills in high school. I know they are doing it more 
in Wisconsin. Maybe it is because they are a heavy 
manufacturing state, got a lot of good construction outfits, 
but is this something that you see more nationwide, more of the 
high schools being on the ball and realizing that we can get 
people on the road to these apprenticeships even when you are 
in high school?
    Ms. CARLSON. I think we can start younger. Certainly.
    Chairwoman DAVIS. Mr. Grothman, your time is up, but I must 
tell you that I would love to work with you on this counselor 
piece.
    Mr. GROTHMAN. Oh, good. Thank you so much.
    Chairwoman DAVIS. Thank you.
    Ms. Bonamici.
    Ms. BONAMICI. Thank you, Chair Davis, and Ranking Member 
Smucker. And thank you to all of our witnesses for being here. 
This is an important discussion we are having, and I think the 
real key is making sure that we have a path for everyone. As a 
member of this subcommittee and this committee, I am certainly 
not going to argue that a college degree is not valuable. The 
key is making sure that for those who decide not to go to 
college, or seek a different path, that we have those 
opportunities for them.
    Career and technical education, of course, in our schools 
is another way to enlighten students about different 
opportunities in the work force.
    So I represent Northwest Oregon and as I travel around and 
talk with people, there are still a lot of people left behind, 
there is still that skills gap with people looking for work. 
And expanding Registered Apprenticeships is certainly a way to 
help address that and to get not only people into good jobs, 
but also to make sure that employers have people with the 
skills they need.
    And, Ms. Carlson, I am so glad you are here also from the 
Pacific Northwest. I know you have offices in Oregon, work with 
the Technology Association of Oregon. I have been especially 
interested in expanding Registered Apprenticeship and that 
model to new sectors of the economy, like healthcare and 
technology.
    And I worked with Chair Davis and Representative Ferguson 
and Guthrie to introduce the--it has a really long name--
Promoting Apprenticeships through Regional Training Networks 
for Employers' Required Skills, but it is easy to remember 
because it is PARTNERS. The PARTNERS Act. So this bipartisan 
bill we use existing dollars to invest in industry partnerships 
to help businesses recruit workers, develop training 
curriculum, and provide, importantly, workers with the tools 
they need. For example, work attire, transportation, childcare, 
mentorship.
    So, Ms. Carlson, can you talk about Apprenti's role as an 
industry intermediary? And how do you support both large 
national employers, like Microsoft, and then also the smaller 
businesses? And how can those industry partnerships and 
intermediaries help support employers that are navigating the 
Registered Apprenticeship process?
    Ms. CARLSON. Certainly. You know, some of the feedback that 
we did get early on was the thought process behind filing of a 
standard would become very company centric, to the ethos of the 
company and less about the skill sets in the jobs, which is why 
they were all willing to come to the table and collaborate on 
developing the skill sets that we filed for the occupations 
that are in the supporting testimony.
    And the roles very functionally are able to then transcend 
all sectors. If you are a C Sharp (C#) developer it is not only 
a C Sharp (C#) developer for Microsoft. That transcends every 
company that is working in that language, no matter what sector 
they are in, which is how we were able as the intermediary to 
establish that, and then the companies sign on to one set so 
that we are not having to re-craft every time, but it also 
means that we can keep up to the minute with whatever changes 
take place in the marketplace.
    We then work with the companies on the curriculums and the 
curriculum changes for each employer based on the needs or the 
platform that they are on. If they are on Azure versus AWS, for 
example.
    Ms. BONAMICI. Wonderful. Thank you for your work. And want 
to get another question in.
    You know, we have seen women in the trades. Across the 
country the representation is quite low, but in Oregon we have 
a wonderful organization, Oregon Trades Women. We have 
basically more than double the national average of women in the 
trades. They offer work-based learning programs to 
organizations aiming to be inclusive of women in the trades.
    Mr.--is it Pavesic? Did I say it right?
    Mr. PAVESIC. Yes.
    Ms. BONAMICI. In your testimony you discuss UA's outreach 
to traditionally underrepresented populations in the trades, 
including people of color and women, and that recruitment is 
only as good as the program that is offered.
    So can you discuss why the quality and accountability 
provisions of Registered Apprenticeships are important to the 
success and retention of workers?
    And as you prepare to answer, I just want to thank Ms. 
Carlson for including the success stories in there. There is a 
lot of diversity in the work you do as well.
    Mr. Pavesic?
    Mr. PAVESIC. Well, I mean our recruitment in outreach 
director is a female, is a woman. We do partner with the North 
American Building Trades for Women Build Nations, which is 
actually the Building Trades second largest conference every 
year. And this year it will be held in Minnesota if anybody is 
interested. And all are welcome.
    But I mean can we do a better job? Obviously we can. The 
one problem that we do see is that we don't have women apply to 
our programs because it is not traditional, it is not a 
traditional job.
    But one of the things that we do is there are plenty of 
jobs within our trades that women can do. So what we do is do 
outreach to try to show them that and to--so that they can see 
that is a viable option to them.
    And the other part too is with Registered Apprenticeship, 
29 C.F.R. 30 is definitely going to push more the Registered 
Apprenticeships toward making sure that their demographics, you 
know, match the demographics of the area they are in.
    Ms. BONAMICI. Right. Terrific. And just in my final few 
seconds, I want to point out that a lot of the current 
technical education classes that are offered in high schools I 
think will help expose students to the possibilities. There was 
a high school in my district that for a time had a girls only 
welding class. So there are just a lot of opportunities for 
young women to see the potential there.
    So thank you all and I yield back.
    Chairwoman DAVIS. Thank you.
    Mr. Smucker.
    Mr. SMUCKER. Thank you, Madam Chair.
    We have talked about the stigma associated with the trades 
and other jobs that we promote or that have been prevalent. My 
colleague, Mr. Grothman, will like a quote I ran across 
recently. This was by Robert Greenleaf, who wrote the book 
``The Servant as Leader'', talking about the best leaders are 
servants first. He was a philosopher, academic, theologian, 
writer, businessman, but he died in 1990. And on his tomb are 
inscribed the words that he requested, which says ``potentially 
a good plumber ruined by a sophisticated education''. So I 
thought Mr. Grothman would like that.
    But isn't there some truth to that? And I think we are 
seeing the tide turn. And, of course, we would never discourage 
a 4-year degree for anyone, but there are lot of opportunities 
out there.
    And so I am thrilled that we are talking about 
apprenticeships. The fact of the matter is it is still a very 
small segment of the potential work force participating in 
apprenticeships. And so I think a discussion about how we can 
expand that is very, very appropriate at this time, 
particularly at a time when we have so many job openings and 
such a critical need for businesses to fill those jobs.
    I wanted to just go back a little, because the fact of the 
matter is that there are a lot of employers today, to the point 
I just made, who hire people into their work force and train 
them. They may not have an education. You know, I joked just a 
little bit ago, someone earlier said about the criteria for 
hiring someone now. I was in the construction industry at a 
point in time where if you fog a mirror essentially you are 
going to get a job when you work into the work force. And that 
is too often what happens today.
    So companies are hiring people and training them without 
participating in an apprenticeship program. And I think it is 
worth talking about the value of an apprenticeship program in 
the first place.
    Mr. Hays, why would a company want their employees to 
participate in an apprenticeship program, and why would an 
employee not only want to participate in on the job training 
but why wouldn't they want be part of an apprenticeship 
program?
    Mr. HAYS. I believe it is critical that companies have to 
look--because just as you mentioned, Congressman, the fact that 
there are labor shortages all over the country, and in a lot of 
cases your business' survival is going to depend on not only 
recruiting, but keeping a work force. Apprenticeship can be a 
tremendous retention tool for those employees, showing that, 
you know, we see workers today and they--you know, they say 
well what am I going to be making 6 months from how, a year 
from now. And a lot of employers can't tell them. With an 
apprenticeship, if that is laid out and say you meet these 
competencies, in 6 months you are going to be here, in a year 
you are going to be here.
    Mr. SMUCKER. Yes, so isn't it the fact that it is a 
structure training program, No. 1, and then, two, there is some 
sort of certificate or journeyman--you know, there is something 
at the end of that process which I think is really, really 
valuable to parents, to employees, to students who are 
considering various career paths, to guidance counselor. That 
is why I really like what you are doing in the partnerships 
with community colleges, for instance. I have great 
partnerships in my area. HACC is a community college in my area 
who partners--students can then--and employees can earn 
certificates and then even can go on further and earn an 
associate degree and go as far as they like that regard
    And I think that is a really important aspect of it.
    We have to figure out how we can expand this. And I know 
the current registration program can be too cumbersome.
    Mr. Hays, can you tell me how long it takes?
    Mr. HAYS. I will give you an example of the one in my 
statement with RMS Aerospace. It took 11 months from beginning 
to finally the program being recognized.
    Mr. SMUCKER. That is just too long. Too many businesses 
choose not to participate in apprenticeship programs because of 
that.
    I completely agree we need high quality programs, but we 
have to look at either streamlining the process or finding 
other ways to help them.
    Mr. Pavesic, in your testimony you say--I just want to 
clarify your thinking on this--a successful, and I quote, 
``apprenticeship program is built on a partnership between 
organized labor, signatory employees, and government''. Do you 
think apprenticeship should be expanded beyond that we are 
seeing in organized labor?
    Mr. PAVESIC. As far as beyond Registered Apprenticeships?
    Mr. SMUCKER. No, beyond organized labor.
    Mr. PAVESIC. Oh, absolutely.
    Mr. SMUCKER. So are you willing as a member of organized 
labor to share best practices with companies that are not 
union?
    Mr. PAVESIC. Well, part of the--our training programs are 
ERISA funded, so the Department of Labor actually restricts us 
from those programs that are developed using membership money 
to share that with non-members. But we are willing to share our 
model with our non-union counterparts.
    We embrace Registered Apprenticeships and we are more than 
willing to level the playing field and say that if we are going 
to do this apprenticeship program and we are going to follow 
these regulations, and you follow the same, we are willing to 
do that. Absolutely, Congressman.
    Mr. SMUCKER. Thank you.
    Chairwoman DAVIS. Thank you. Thank you.
    And we will now talk to our Chair of the Education and 
Labor Committee, Mr. Scott.
    Mr. SCOTT. Thank you, Madam Chair.
    Registered Apprenticeships have stood the test of time 
there is no place where they make the better point than in my 
district with the Apprentice School at the Newport News 
Shipbuilding. That Apprentice School is over 100 years old. It 
has graduated more than 10,000 apprentices. It currently has 
approximately 800 young men and women enrolled in 28 different 
4, 5, and 8-year apprenticeship programs, all approved by the 
Virginia State Apprenticeship Agency.
    And they do such a good job and have so many applications 
that the odds of getting into the Apprentice School are worse 
than the odds of getting into an Ivy League college.
    I guess a good advantage of this, you not only get a good 
education, but you are paid while you are doing it, so you end 
up--unlike many students--you end up with no debt.
    Mr. Hays, in the community college you indicated there are 
a lot of jobs. I assume they are not filled because people 
can't find workers with the appropriate skills. Is that right?
    Mr. HAYS. Yes, sir, that is correct.
    Mr. SCOTT. And you talked about working with businesses to 
make sure that you have the programs that are needed. Have you 
been able to meet the need of the businesses in your community?
    Mr. HAYS. No, sir. The need is so massive that we cannot 
turn out the number of people that we need, whatever 
traditional college programs, apprenticeships, or whatever. 
There is still this massive labor shortage in the Dallas-Fort 
Worth area.
    Mr. SCOTT. And what is the barrier to meeting the need by 
the community colleges?
    Mr. HAYS. I think the biggest barrier is the fact that, as 
I have said earlier, they are not buying what we are selling. 
The traditional approach is not working. How do we attract 
students, how do we get them into, whether it is traditional 
college programs, whether it is apprenticeship programs, any 
kind of training or education programs, how do we get them into 
that, how do we attract them? And I think we are still trying 
to figure that out. Around the country there are pocket of 
success here and there, but to take that to scale is a huge 
problem.
    Mr. SCOTT. There are alternatives to community colleges. 
Can you compare what you charge students for similar programs 
compared to what they pay elsewhere?
    Mr. HAYS. Speaking specifically for the Dallas County 
Community College District, our tuition rate is $59 a credit 
hour. Half of our students pay nothing. With the Dallas County 
Promise we have had 16,000 seniors that have come into our 
college programs this past year. That is more than the number 
of graduating seniors in 17 states. These students will pay 
nothing for their college. And then with the transfer programs 
worked out to 4-year institutions, they could essentially go 
through 4-year--get a 4-year college degree if they so choose 
and not have to pay very much money at all to do that.
    Mr. SCOTT. Well, what are the alternative ways of getting a 
similar education, similar job training?
    Mr. HAYS. Well, the apprenticeship programs, of course, are 
areas that we look at simply because we know that--you know, 
the old saying that not everyone is cut out for college, well 
that may be true, but my thing is everyone has to have some 
kind of post-secondary training.
    Mr. SCOTT. Right. And you can get it there in--there are 
other ways of getting the education, a for-profit college, for 
example.
    Mr. HAYS. Yes, sir, that is an alternative. They have had 
very well publicized problems around the country. But that 
certainly could be an alternative.
    Mr. SCOTT. Well, how do your prices compare to those?
    Mr. HAYS. Oh, I mean, Congressman, a student could get an 
associate of applied science degree at one of our institutions 
for less than $4,000. We don't even charge fees. We don't even 
charge student fees, so. We are blessed, very blessed among a 
lot of community colleges in this country.
    Mr. SCOTT. Well, if they are buying that at a higher price, 
do you advertise.
    Mr. HAYS. We do have some marketing, for example, with 
major sporting events, with social media, and that sort of 
thing. But television time is a different story in Dallas. A 
very expensive television market, so you are not going to go 
out and buy a lot of TV advertising, for example.
    Mr. SCOTT. I have a couple of other questions, Madam Chair, 
but I see by the time I asked the question my time would have 
run out, so I will yield back.
    Chairwoman DAVIS. Thank you.
    Mr. Banks, you are next.
    Mr. BANKS. Thank you, Madam Chair.
    I want to focus a little bit too on flexibility and 
innovation. Everyone on this committee knows that the skills 
gap is a daunting challenge. While Registered Apprenticeships 
are an important part of closing the gap, the data makes clear 
that we will need more options if employers are going to fill 
the millions of jobs currently available.
    For example, in my home state of Indiana, there are 
100,000+ unfilled jobs. At the same time in 2018 there were 
17,000 Hoosiers enrolled in federally Registered 
Apprenticeships and 3,000 graduates. That is simply not enough.
    The same is true at the Federal level. The latest data 
shows 7.6 million unfilled jobs compared to 585,000 active 
apprenticeships and 72,000 graduates. Given that half of all 
job openings between now and 2022 will be middle skill, exactly 
the kind of jobs that apprenticeships can help fill, we clearly 
will need more options outside of the federally Registered 
programs.
    Mr. Hays, in your testimony you talk about the DCCCD, about 
what they are already involved with some of these industry 
recognized apprenticeship programs. Given the magnitude of the 
skills gap and the numbers that I have mentioned, would it be 
fair to say that more industry recognized apprenticeships are 
simply an economic necessity?
    Mr. HAYS. Oh, I believe so. And I think to expand this 
program, it is going to be critical. But I share some of my 
colleague's concerns here about the rigor of those programs. 
And part of what we need to make sure of is that there is clear 
guidance on those programs from the Department of Labor and 
that rigor is maintained.
    And a lot of that--employers though are going to say that 
we are going to maintain the rigor simply because they are 
going to be our workers and we don't want workers who aren't 
skilled doing critical jobs. So I think you will see a lot of 
that correct itself. I don't know if IRAPs are going to replace 
the entire world of apprenticeships. I certainly don't think 
so. I think there is a place for both programs, for both 
Registered and IRAP programs.
    Mr. BANKS. I appreciate that very much.
    That is all I got. I yield back.
    Chairwoman DAVIS. Thank you.
    Ms. Adams.
    Ms. ADAMS. Thank you, Madam Chair, and I want to thank the 
ranking member as well for convening the hearing today. And to 
the witnesses, thank you for your testimony.
    Ms. Carlson, what types of support do intermediaries 
provide to help lower barriers for employers to participate in 
Registered Apprenticeships?
    Ms. CARLSON. Well, we work with the employers to identify 
the roles that they are willing to take, people that can't or 
that don't have college degrees, because that is not a 
requirement for getting into the program, which opens the door 
to everybody effectively, 18 and over. And then we provide the 
employers with a bank of potential of apprentices that they get 
to interview on a blind basis. So they don't get to know the 
educational attainment or prior work experience of those 
people, so they are comparing them purely on soft skills and 
their ability to have competency in the work. Our ability to do 
that as the intermediary allows us to kind of break down some 
of the barriers that they have had in hiring previously.
    Ms. ADAMS. All right. Thank you very much. I was glad to 
see that you recommended in your testimony dedicating $250 
million annually to supporting apprenticeship programs.
    One of the biggest challenges to scaling successful work 
force training programs in our country is the lack of resources 
that we dedicate to the work force system. WIOA, for example, 
has yet to be fully funded to authorize levels. And the Trump 
Administration's proposed 2020 budget calls for cutting $1.2 
billion, for nearly 10 percent of the Department of Labor's 
resources to help offset the cost of tax cuts for the 
wealthiest Americans.
    I was also impressed by the fact that the Apprenti 
apprentices make roughly 155 percent jump in earnings in about 
18 months of their program. Can you speak more to the positions 
and the wages that are coming out of your apprenticeship 
programs and the kinds of investments that are really necessary 
to scale programs like yours?
    Ms. CARLSON. Absolutely. These are middle skills positions, 
so they are at the low end, the data center technician role, 
all the way up to cloud specialist and software developer, so 
they are true middle skills. And the range in retained salary 
is between $56,000 and $118,000. And we now have a large number 
that are in that $90-118,000 coming in. Fifty-two percent of 
the apprentices end up having a college degree. Once we get 
them into the system we find that out. But the retention looks 
the same on college degreed versus non-college degreed, proving 
that it is about competency and not the pedigree.
    Ms. ADAMS. Yes, Okay. So what other actions can my 
colleagues and I take to help intermediaries like Apprenti 
expand innovative programs, apprenticeship programs in high 
demand fields while maintaining program quality?
    Ms. CARLSON. Well, because this is new to the tech sector 
in this country, one of the challenges that companies look at 
as they are trying to get their heads around hiring 
nontraditional talent into these roles is the cost. And they 
are already fronting the cost at about $75,000 a person for the 
salary and benefits for the term of apprenticeship. They are 
fronting a portion of the training costs, and we are working 
jurisdictionally across each state to identify public-private 
partnership to pay the remainder of the tuition so that the 
apprentice pays none of the training cost.
    As a result, it means having to piecemeal that location by 
location, which makes it harder to scale with companies.
    Establishing that $250 million ask would allow for that 
immediate match on a national scale and will alleviate some of 
the pressure that we have in trying to help companies 
understand what their investment might look like and get them 
more confident and comfortable in the model.
    Ms. ADAMS. Thank you very much.
    Madam Chair, I also want to just comment on the fact that a 
lot of this hearing, and rightfully so, has focused on youth 
apprenticeships and the benefit of starting students into the 
work force. As a former educator of 40 years, I understand how 
important that is. But I also hope that as we debate the 
importance of apprenticeships, that we can discuss 
transitioning and displaced adults, returning citizens, and the 
disabled as we debate not only preparing future workers for 
America's work force, but how to provide for those who are 
trying to find their way into a changing economy.
    And with that, Madam Chair, I yield back.
    Chairwoman DAVIS. Thank you.
    Mr. Norcross.
    Mr. NORCROSS. Thank you, Madam Chair, and ranking member 
for having this hearing. I really like what is coming of this.
    I am a product of a 4-year apprenticeship, not a common way 
to get to Congress, but certainly something I understand. And I 
just want to echo what Ranking Member Smucker talked about very 
early on, is the narrative in this Nation, in order to make it 
you have to go to college. Well, that might be true for a few, 
for many, or at different times in their life, but it is not 
right for everyone.
    Certainly, I had three brothers, they went more traditional 
college route. I did a 4-year, but it was non-college, it was 
an electrical apprenticeship program. But the narrative is from 
your parents to your teachers to your guidance counselors, you 
have got to go to college. I can't tell you how many college 
attending people now apply for the apprenticeship program after 
they go to college, spend maybe $100,000 of debt, find out it 
is not for them, and then find a way into one of the skilled 
craft trades. And that is a narrative that your comments and 
others that we have to change.
    You might not go to college in the beginning, maybe at 25 
you are ready. But we need to have on ramps and off ramps to 
apprenticeship programs.
    And I want to thank the Chairwoman for setting up that 
CODEL. We went over to Switzerland to see the model that they 
are making. And they have in so many more industries than we 
do. Our traditional apprenticeship craft workers, metal trades, 
and some of the shipyards, or primarily the building trades who 
have been doing it for well over 100 years and do it better 
than anybody and do it with 0 government dollars. Zero 
government dollars.
    And that is the main difference between why I believe we 
are falling behind in the other areas that you talk about, Ms. 
Carlson, is that companies want us to pay for it. That is a 
difference between a model that works in the building trades 
and the models that you are trying to.
    I think an idea of seed money to get the programs sort of 
going, but this is something that it becomes a gift for those 
companies. That we should work collectively together, whether 
in the union, collective bargaining agreement, or other trades 
that you talk about, Mr. Hays, what you do. It is that we can 
all do this together.
    And that is one of the things, the Registered program is 
critical. And there are a couple of reasons why. The standards 
on the East Coast are the same as the West Coast, particularly 
in the trades and the metal trades. The electricity flows the 
same way here as it does there, and they are interchangeable. 
But the most important thing is as you go through these 
programs, the flexibility for market conditions. When times 
were tough a half dozen years ago, the apprentice rate of going 
in was much lower because the industry didn't need it. Now, it 
is on the other end. But unfortunately, when I applied for only 
40 spots, there was 800 applications. Today, that is less than 
half, because that narrative, that somehow you have to go to 
college to make it.
    We were just down with Bobby Scott in his shipyard where we 
are seeing firsthand that next generation. Because we can draw 
all the blueprints we want, design the fastest ships, but if 
there is nobody there to build them, we are in trouble.
    So that brings me to the Registered Apprenticeship 
programs, the portability of skills. If we set up separate 
standards across the country, that portability gets erased. You 
can define it for market conditions, which is what they do so 
well. But so when we talk about Registered programs there are 
those companies out there that want to abuse apprentices, to 
use them for the cheaper rate. Davis-Bacon. So you have nothing 
but first year after first year.
    So whatever we do, we have to make sure we look at the 
schools, the graduation rates, that they are just not churning 
out cheap products at first year, but are actually graduating 
skilled craftswomen and men.
    So, as I go into my first set of questions I want to talk 
about that continuous feedback and the fact that zero 
government dollars.
    Mr. Pavesic, or as I call him, Mr. UA, talk to us about the 
apprenticeship program, because I don't think you figure into 
the cost of the apprenticeship program what employers are 
paying apprentices. They are getting productivity back when 
they are paid, right?
    Mr. PAVESIC. Absolutely, Congressman. You know, and the 
thing about that is that they are getting a skill set from an 
apprentice that comes in at a lower cost, they are able to 
blend their rates so they are more competitive with those 
apprentices that they bring in. But, yes, I would say 
absolutely.
    Mr. NORCROSS. So when we talk about if we really want to do 
what we have talked about, and I believe everybody here 
understands, let us create some incentives that aren't 
necessarily--outside of some seed money--some incentives to use 
apprentices to work them through on good programs that 
graduate.
    So the bidding process comes to mind. Do you have any 
thoughts on, so if you use a certain amount of apprentices and 
they graduate at a rate, you know, 60 percent or above, how 
does that fit into the bidding process right now?
    Chairwoman DAVIS. Excuse me. I am sorry, Mr. Norcross, your 
time is up and over, so I am going to switch. And if we can try 
and incorporate those answers into some of the other questions, 
that would be really helpful.
    Mr. Takano next.
    Mr. TAKANO. Thank you, Chairman Davis, for this hearing and 
thank you to our witnesses for providing your insights into 
this growing industry.
    Registered Apprenticeships are an important part of the 
work force training and they are valuable for the workers and 
the employers, which is evident from the growing number of 
apprentices participating. These high-quality programs are 
critical pathways to ending a cycle of poverty.
    California is currently a leader in Registered 
Apprenticeship programs with close to 3,000 active programs to 
date. In San Bernardino County, a neighboring county to my 
district, they have a successful program called Generation Go. 
This program serves hundreds of youth, ages 16 through 24, by 
providing work-based learning through a partnership within the 
K-12 system, community colleges, and industry that creates a 
pipeline for career success. This is not unique to California. 
States like South Carolina and Virginia have also very 
successful Registered Apprenticeship programs that have trained 
thousands of apprentices and provided them with credentials 
that are recognized nationwide.
    My first question for Ms. Carlson is a--what I want to ask 
you is a common complaint about creating new Registered 
Apprenticeship programs, especially in new occupations, is the 
financial burden that employers face. How did the DOL grant, 
that you mention in your testimony, support the establishment 
of your program?
    Ms. CARLSON. Well, it really worked for us kind of like 
seed money, as Mr. Norcross pointed out. It wasn't intended to 
be a long-term fund. It was built so that we could adequately 
staff and work with the companies to build the program. The 
original intent was that we would help companies set up 
Registered Apprenticeship for themselves within each company, 
and that is when they pushed back on us to staff it and become 
the intermediary and take on some of those responsibilities on 
behalf of them with this Federal Government in the filing 
process.
    But those funds were the seed capital that was needed to 
get the programs running and begin to expand. The contract that 
we subsequently won from the U.S. DOL to be the IT sector lead 
is what has funded our ability to expand that on a national 
footprint. And our program is built to be self-sustaining in 3 
to 4 years. So that is not a long-term cost that needs to be 
there for us. The sector will start to make that investment in 
us to maintain it across the country.
    Mr. TAKANO. So really you can foresee with this sort of 
seed capital the apprenticeship becoming self-sustaining in the 
way that they are in the building trades?
    Ms. CARLSON. Correct. Over time.
    Mr. TAKANO. Over time.
    Ms. CARLSON. So for us it is a green field environment. The 
companies in this country are trying to get comfortable with 
the idea and how they cultivate talent and as much as we are 
building this out on their behalf, they are figuring out how to 
operationalize it internally to become a training platform. And 
so this is something that over time will become self-funding, 
very similar to the trades.
    Mr. TAKANO. My next question is for Ms. Gainer. The average 
age of a new apprentice in the United States is 29. What can we 
do to support more youth participation in apprenticeship 
programs?
    Ms. GAINER. Thank you. The average age of the apprentice 
program in Chicago is younger than that, it is probably the 
earlier 20's. We have been recruiting people from city 
colleges, so you have some who are in their late 20's, a few in 
their early 30's, but most--we have 5 new people that just 
started today who are 18 and 19. So some are leaving high 
school and some are mid-20's, but I think it is what others 
have said, which is start talking about this in high school. 
The reason people choose college is because they know it is 
going to relate to a higher wage. We need to make 
apprenticeships just as reliable when young people are making a 
very important choice in their life.
    Mr. TAKANO. Thank you. Ms. Gainer, can you also elaborate 
on why this is a financial benefit for a company, such as 
yours, which has been ranked globally as a top company?
    Ms. GAINER. Thank you. You know, for us, it is very 
expensive to hire someone and have them leave after 18 months 
and then have to go hire a recruit and train someone else to 
take their place. So when you identify the roles that had 
higher attrition and those were the first targets, and that was 
in order to make the business case and try something new and 
different, which is inherently risky. So we reduced the cost of 
retention, we increase our savings by retention. But the second 
thing is apprentices, especially in the UK where we have been 
tracking this for over an UK, are much more highly engaged, and 
that is well proven to be a more productive employee.
    Mr. TAKANO. Well, how do you suggest we incentivize more 
employers and businesses to actively participate and come to 
the table?
    Ms. GAINER. I think it is about creating something that is 
scalable across the country. We are now beginning to start the 
program in New York working with IBM and others. And the idea 
that you can have all the learning and the development we have 
done on the Registered programs can be ported there, I think 
will be a big help.
    Mr. TAKANO. Madam Chair, my time is out and I yield back.
    Chairwoman DAVIS. Thank you very much.
    Mr. Trone.
    Mr. TRONE. Thank you, Madam Chair. Is this one on? Oh, 
there we go.
    First of all, thank you very much for coming out today. I 
think apprenticeships are absolutely a fantastic way to go. 
Before I go this job I was an entrepreneur, an employer. My 
company, I created over 7,000 jobs, so I understand the 
importance of it is hire, it is train, and it is retain. And 
the focus is train and retain. If we get those two things 
right, everybody succeeds. The team members succeed and the 
company succeeds.
    So, Mr. Pavesic, talk a little bit about why UA is so 
committed to apprenticeship, because it is an expensive type of 
on the job training. There is a lot of less resource intensive 
ways you can go about it. But just speak to that a little bit 
for us.
    Mr. PAVESIC. Well, part of it too is that, you know, it is 
funded by the membership, so there is a piece of their hourly 
rate that comes back into training. And the members are about 
preserving our trade to make sure that this trade is passed on 
from generation to generation. So the cost is not--to them the 
cost is not a matter.
    But the other part of it too is we want to make sure that 
we have the highest skilled work force to make sure that we 
have the individuals that can come in and do the job.
    Mr. TRONE. Thinking about entry, how do people get ready 
for apprenticeship programs? What are your thoughts on 
legislation on pre-apprenticeship programs that might help 
these young people be ready actually to move into an 
apprenticeship?
    Mr. PAVESIC. Well, you talked about retain. And we support 
pre-apprenticeships. The one problem--probably the one issue 
that we have when it comes to retention, and it is usually in 
the first year where we lose them, is that an individual comes 
to us and they are in their 6 months and all the sudden they 
are like, you know what, this job is not for me. I don't want 
to work high, I don't want to be dirty, you know, I want to do 
something else, and we lose those individuals. And we have an 
investment into that individual.
    So someone who has a pre-apprenticeship--we also have 
accelerated training programs ahead of those, you know, 16-18 
weeks accelerated training programs, and boot camps. But if 
that individual at least sees hey, you know what, I have an 
interest in being plumber, I have an interest in being a 
pipefitter or a welder. So our retention rates are much better 
with pre-apprenticeship.
    Mr. TRONE. Okay. Excellent. Last quick question was speak 
to the value to an apprentice in having a Registered 
Apprenticeship program with a nationally recognized credential 
that is stackable. You know, how does this position them for 
more success?
    Mr. PAVESIC. Well, first of all, it is portable. So an 
apprentice that is trained in New York can go to Chicago, can 
go to California, and those skills are taught--we are not just 
teaching them how to be a plumber or pipefitter in New York, we 
are teaching them how to be a successful plumber or pipefitter 
throughout the country.
    The other part of it too is that--is wages. I mean it is a 
living wage. They are able to raise a family and, you know, own 
a couple of cars and buy a home. And the other part of it too 
is no debt. And they are going to come through, they are going 
to earn while they learn with 100 percent employment and no 
debt at all.
    Mr. TRONE. Okay. Thank you. I yield back my time.
    Chairwoman DAVIS. Thank you very much.
    We are at Mr. Sablan.
    Mr. SABLAN. Thank you very much, Madam Chair.
    Before I start I would like to see unanimous consent to 
insert into the record a statement from the International Union 
of Painters and Allied Trades.
    Thank you.
    I don't go home every weekend, I can't. It is just too far 
away. But when we do have a 1 week break I go home. I try to, 
and I usually do, visit the schools, have conversations with 
students. And I am one of those who tells students that not all 
of them are going to be doctors and engineers, that some of 
them are going to have to make hamburgers. I love eating 
hamburgers. And I tell them that there is life aside from 
college, because I do agree. And I am aware that students are 
being told that, yes, you do good in school and go to college.
    I wish I could say that we have a robust apprenticeship 
program. We have a trade school that is not accredited. I was 
able to get them some money hoping that they would get an 
accreditation, be nationally recognized, but. So now that 
school is sort of teaming up with our high school and our 
community college so that students will get to learn the 
trades. I tell them about a friend of mine whose only training 
in life was the trade institute and has come back and built 
himself a business and pays himself--makes more money than most 
lawyers on the Island.
    So we are going to get there. I continue to support that 
program.
    Let me ask you, Ms. Carlson, if I may, your testimony calls 
for creating a sustainable annual $250 million Federal matching 
fund at states, and I hope the insular areas and territories 
like the Northern Marianas, get access to support the classroom 
training costs of developing apprenticeships in nontraditional 
sectors.
    If this investment were made, how many additional 
apprenticeships do you foresee could be established annually?
    Ms. CARLSON. I would see that as, doing quick math here, 
around 30,000. That would subsidize the classroom training of 
about 30,000 apprentices.
    Mr. SABLAN. Thank you.
    Ms. Gainer, this committee in the last Congress we made a 
visit to an apprentice shop, training center not far, just 
within driving range of Capitol Hill. And I also impress Mr. 
Pavesic with--because this is a shop that has union working 
with employers and supporting these people. These individuals 
come in, attend class for 1 day and the rest of the week they 
go and work full-time.
    But, Ms. Gainer, you may not know this but in my district 
in the Northern Marianas, along with American Samoa, we are the 
only two jurisdictions for the 4-year public university. It 
hosts a single community college. Now, how has your 
organization worked with your local community college and work 
force to support and scale your apprenticeship program?
    Ms. GAINER. Our apprenticeship program partners for all of 
our training with our local community college. So they work 4 
days a week at Aon and then they go to community college. So 
there is a technical college, there is IT college, there is a 
business college. So it is a complete partnership with 
community colleges.
    Mr. SABLAN. Okay. And I thought I heard you say that you 
also have programs in Europe?
    Ms. GAINER. So the company is global and apprenticeship 
programs in insurance and financial services are pretty common 
in Europe, especially, you know, the center of the industry is 
in London. And it is pretty common for people to have gone 
through an apprentice program.
    Mr. SABLAN. Because Aon is in my district actually. It is 
in many parts of the Pacific Islands. So maybe if you could 
look into that and find a way.
    Ms. GAINER. Sure.
    Mr. SABLAN. Because many of the students are even in 
cooperative education, co-ops with the high school students, 
they are sent to work in white collar desk jobs. You know, they 
are not sent to learn insurance, for example, or they are not 
sent to work with construction companies for some reason. And 
that really does a disservice to the individual students who 
may actually turn out to be great auto mechanics.
    But I see my time is up.
    Madam Chair, I will submit some questions for the record.
    Thank you very much for being here today.
    Chairwoman DAVIS. Thank you very much, and thank you to all 
of you.
    As we wind up, I wanted to just ask one particular question 
that didn't quite get asked, although I know, Ms. Carlson, it 
was in your written statement and I think it was referred to 
as, you know, what are apprenticeships, how do we define them, 
how are they branded, do we run the risk sometimes of just, you 
know, talking about apprenticeships without having the 
specifics involved.
    And so I wonder, Ms. Carlson, if you could respond quickly, 
and if others want to add something to that, that would be 
fine. And you can also submit that for the record if you would 
like so that we have that as part of our record for today as 
well.
    Ms. Carlson, since you were the one who recommended 
particularly defining this.
    Ms. CARLSON. Yes. I think we have regulation through DOL 
already on books, but having it established in a more formal 
setting would be I think incredibly important for us as we try 
to alleviate brand confusion around just terming an intern as 
an apprentice and changing the title to call it a training 
program. So I think codifying that into law and securing that 
would also go a long way toward making sure that we deliver on 
the promise and any funding that the DOL is providing in the 
marketplace.
    Chairwoman DAVIS. Thank you. Would you generally agree with 
that? Suggest there is kind of a consensus?
    Mr. PAVESIC. Well, I just had another comment as far as it 
went, Madam Chairwoman. But one of the comments that I had 
heard earlier today was that, you know, the manufacturers and 
their training programs and their, you know, the--and a lot of 
manufacturers bring individuals in and train them. I think 
where the mistake is, is to call that an apprenticeship 
program. There is nothing wrong with calling it a training 
program. But I would hate to see apprenticeship programs 
watered down because we bring somebody into a tool and die 
manufacturer, or whatever that is, and then teach them maybe 
one or two skills there over a short period of time. I think 
the idea is to make sure that individuals have the skills to be 
productive for their entire life and their entire careers.
    Thank you.
    Ms. GAINER. I think it is useful to think of an 
apprenticeship is a defined period of time where you graduate 
and you have a specific job that is recognized across the 
country, not just in our own company. And so that is scalable 
nationally, but it is not something--you know, I think the 
biggest fear for us is we invest all of our own funds into this 
program and it becomes like an internship, where maybe you are 
getting coffee or maybe you are writing code, and no one knows 
what it means, and then thus it does not have value.
    Chairwoman DAVIS. Thank you very much.
    And certainly from our point of view too, in terms of the 
Federal role, we are talking about taxpayer dollars. And so in 
those instances where that does help people to navigate better, 
to be a little more educated in the process, that is helpful as 
well.
    I want to turn to our distinguished ranking member for his 
closing statement.
    Mr. SMUCKER. Thank you, Madam Chair.
    I would like to thank all of the witnesses for their 
testimony here today. It was an excellent conversation and 
appreciate you scheduling this, Madam Chair.
    We heard apprenticeships and on the job learning are 
valuable tools for providing Americans in the 21st century with 
the skills they need to compete and succeed in today's rapidly 
evolving economy.
    Registered Apprenticeships are certainly a valuable aspect 
of this effort, but we know it is not alone filling the gap 
that we have today in our workplace. We just simply can't limit 
students to just one tool in the toolbox. We need to think 
about expanding the Registered Apprenticeship program or 
including an all of the above approach to ensure that we are 
able to fill these jobs and provide these lifelong jobs to the 
students.
    Employers know better than anyone what skills they are 
looking for. We should ensure that they have the flexibility to 
empower prospective employees, whether through Registered 
programs, the expansion of those programs, or through other 
means. There is not one pathway to success.
    I was, however, very encouraged to hear each of our 
witnesses, how they have worked in their communities to 
contribute to a dynamic work force, how they work with 
employers to meet their needs, and uphold the dignity of all 
work.
    We must continue down this path if we want to continue to 
succeed and meet the demand for workers.
    Thank you again.
    And I yield back.
    Chairwoman DAVIS. Thank you. And I just wanted to remind my 
colleagues that pursuant to committee practice, materials for 
submission for the hearing record must be submitted to the 
committee clerk within 14 days following the last day of the 
hearing.
    And also, for the witnesses, if you were--we will get those 
questions to you. I think they have to be in within 7 days, and 
you have 14 days to respond to those as well. So I hope that 
you will take that opportunity if it is relevant for your 
comments.
    And I really just wanted to thank you all for being here 
today. I think you have provided a broad range of comments. 
Much consensus here today and I think urgency. And that is 
really what we need to have and to be able to bring to the men 
and women of this country, young people as well as a wider 
range of ages; that there are those programs available to them 
that give them that career path that is sustaining for them and 
for their families, and strengthening businesses with a 
valuable pool of productive and committed workers.
    So we recognize the importance of that. I know that we hope 
to have additional hearings, but we also know that we need to 
distinguish to a certain extent how we can proceed and how we 
can move forward. And so your comments have been very helpful 
in that.
    And I thank you this evening. Thank you for being here.
    [Additional submissions by Ms. Jayapal follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submissions by Mr. Sablan follow:]
    [GRAPHIC] [TIFF OMITTED] T6588.057
    
    [GRAPHIC] [TIFF OMITTED] T6588.058
    
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
